<html>
<title> - BUILDING THE FOUNDATION FOR SURFACE TRANSPORTATION REAUTHORIZATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   BUILDING THE FOUNDATION FOR SURFACE TRANSPORTATION REAUTHORIZATION 

=======================================================================

                                (113-48)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 14, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-278 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Mary Fallin, Governor, State of Oklahoma, on behalf of the 
  National Governors Association.................................     4
Stuart Levenick, Group President, Caterpillar, Inc...............     4
Hon. Kasim Reed, Mayor, City of Atlanta, on behalf of the U.S. 
  Conference of Mayors...........................................     4
Lawrence J. Hanley, International President, Amalgamated Transit 
  Union..........................................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Howard Coble, of North Carolina.............................    46
Hon. Steve Daines, of Montana....................................    47
Hon. Nick J. Rahall, II, of West Virginia........................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Mary Fallin.................................................    52
Stuart Levenick..................................................    59
Hon. Kasim Reed..................................................    68
Lawrence J. Hanley...............................................    78

                       SUBMISSIONS FOR THE RECORD

Alliance for Toll-Free Interstates, written testimony............   105
Kurt J. Nagle, President and CEO, American Association of Port 
  Authorities, written testimony.................................   109
Edward A. Gottko, PWLF, President, American Public Works 
  Association, written testimony.................................   112
International Bridge, Tunnel and Turnpike Association, written 
  testimony......................................................   120
Transportation Equity Caucus, written testimony..................   124
Victor S. Parra, President and CEO, United Motorcoach 
  Association, written testimony.................................   129

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   BUILDING THE FOUNDATION FOR SURFACE TRANSPORTATION REAUTHORIZATION

                              ----------                              


                       TUESDAY, JANUARY 14, 2014

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the committee) presiding.
    Mr. Shuster. The committee will come to order.
    First I would like the opportunity to welcome everyone to 
today's hearing. It looks like we have a full house, which is a 
good sign. This is the first hearing for the committee this 
year, and the subject matter is of critical importance to the 
Nation, to the economy, and certainly to our transportation 
infrastructure system.
    I am pleased to welcome our distinguished witnesses: The 
Governor of Oklahoma and former colleague, Mary Fallin. Mary, 
it is great to see you, and Governor, it is great to see you 
today.
    Mr. Stuart Levenick, group president of Caterpillar. Nice 
to see you, sir.
    The Honorable Kasim Reed, the mayor of Atlanta. Mr. Mayor, 
thanks for being here with us.
    And Mr. Lawrence Hanley, international president of 
Amalgamated Transit Union.
    Thank you all for being here. We certainly look forward to 
hearing from all of you today.
    Transportation is important, I think we all know that, and 
sometimes we forget the importance of it in our daily lives. 
But it is how people get to work, it is how we get our children 
to school, we go to the store to buy food and clothes and any 
other necessities as well as visiting our family members around 
the country.
    But it is also about business. It is critical to the supply 
chain, how it functions, how raw materials get to factories, 
how finished products get to market, and how food gets from 
farms to our kitchens.
    It allows American business to be competitive in the global 
marketplace and for our economy to prosper and grow and create 
jobs. And that is absolutely essential to this bill and to any 
infrastructure bill we do, and that is to talk about the jobs. 
Not just the construction jobs, we certainly know there are 
going to be construction jobs created, but it is the long-term 
jobs.
    And so that Caterpillar, when they are grabbing market 
share in the world economy, they are going to be hiring 
hopefully more people back in Peoria or their other plants 
around the country, creating those jobs to create those 
machines that again go into the world economy. And sold there 
and make our economy stronger.
    There is a long history of a strong Federal role in 
transportation. I go right back to the key philosopher that our 
Founding Fathers all read when they were developing this 
Nation, this constitution, Adam Smith was the father of modern 
economics. And he believed there were three duties of 
Government: To provide security, preserve peace, and to erect 
and maintain public works to facilitate commerce. And with 
those thoughts, our Founding Fathers went forward and drew up 
the Constitution. Article 1, Section 8 talks about the 
interstate commerce and post roads. And those post roads today 
are the highways, the byways, the transportation system of 
today, as well as the inland waterways and the harbors that 
were absolutely critical at the beginning of our Nation.
    The Federal Government continued to invest over the last 
200 years from the Transcontinental Railroad, to the Panama 
Canal to the Interstate Highway System, all making significant 
impacts to the efficiency and to the economy of the United 
States.
    Last Congress we continued this history by passing MAP-21, 
which reauthorized Federal surface transportation programs, and 
MAP-21 expires in September of this year. My hope is to have a 
reauthorization done on time, and in order to do that the 
committee's work is ramping up to get a long-term bill. Today 
we are formally kicking off this reauthorization process with 
this hearing.
    In the coming months, we plan to hold hearings and 
roundtable discussions to give stakeholders an opportunity to 
share their policy priorities and concerns. We hope to take 
committee action in late spring, early summer with the goal to 
be on the House floor before August recess. In this timeframe 
will give us a time to conference that bill with the Senate.
    I believe this bill needs to be bipartisan, much the same 
way we moved forward with WRRDA, to build consensus working 
together and making sure we are educating, and all of you as 
stakeholders in this room, helping to educate Members of 
Congress, as to the importance of this bill, what it means in 
their districts, what it means to their States and their 
States' and districts' economy.
    The next bill must ensure that our surface transportation 
system can continue to support the U.S. economy and provide 
Americans with a good quality of life. And as I said, this bill 
is about jobs. It is about providing a strong physical platform 
for U.S. companies to compete at home and abroad.
    It is about making sure we can purchase goods and services 
which we have come to rely on in our daily lives. And as I said 
and I will keep saying, it is about jobs. Not only the 
construction jobs but the jobs that people are going to be able 
to create in factories around this country and also people 
going into the stores and not paying more but paying less for 
those products that get efficiently to their shelves so they 
have more money in their pockets to spend money on other things 
that they want in their lives.
    So how do we get there? This bill will be built around key 
principles. This bill needs to be fiscally responsible and to 
build on the reforms of MAP-21. We need to continue to reduce 
regulatory burdens, we need to make sure our Federal partners 
have flexibility in how they spend their money and approve 
projects.
    We also need to focus on freight mobility. Chairman Jimmy 
Duncan's special panel on freight wrapped up this October. An 
independent panel provided us with a lot of good 
recommendations that we need to take a hard look at. We can't 
afford to be stuck in the past or we will be left behind, more 
assuredly.
    We should encourage our Federal partners to think outside 
the box in how to address our transportation challenges. So we 
need to promote innovation and lay the foundation for emerging 
technologies. By passing the next surface transportation bill 
we can ensure Americans quality of life and facilitate economic 
growth for years to come.
    So I look forward to hearing from our distinguished panel, 
and with that will turn to the ranking member on the Highway 
Transit Subcommittee, the honorable gentlelady from Washington, 
DC.
    Ms. Norton. Thank you, Mr. Chairman.
    I certainly had not intended to make an opening statement 
because Mr. Rahall is shortly here. I believe he was on C-SPAN 
this morning. But since he is not here, and I know he will have 
something to say when he comes, I want to say, Mr. Chairman, 
how encouraged I am by your opening statement and by our 
beginning the year with this hearing. With every indication 
that we will have a new bill, the Democrats among ourselves 
have been meeting, to talk about priorities.
    Of course, our major concern is the great dilemma of 
surface transportation and of this committee. And that is as 
our trust fund evaporates, and I don't believe that that is too 
harsh a word, whether we will be innovative enough to come up 
with a way to pay for this bill that will attract both 
Democratic and Republican support. And, Mr. Chairman, I have no 
doubt, given your leadership on the WRRDA bill, that that is 
not a task beyond you, or beyond this committee.
    And I thank you very much, Mr. Chairman, for not allowing 
us to go home in January without casting the opening net for 
the new surface transportation bill for 2014.
    Thank you, Mr. Chairman.
    Mr. Shuster. I thank the gentlelady.
    And with that again Governor Fallin has got a hard stop, so 
we want to get started with her.
    And then I would encourage the witnesses to maintain the 5-
minute rule. I have been known to be brutal with the gavel and 
the clock, but since we have such a distinguished group here, I 
may be a little weaker today.
    But with that, I would like to allow Mr. Markwayne Mullin 
to introduce the Governor of Oklahoma.
    Mr. Mullin. Thank you, Chairman.
    It is a great honor I have to introduce our honored guest. 
Governor Mary Fallin, from the great State of Oklahoma. What an 
honor to have you back. I know this used to be your committee. 
And you are going to bring a very unique perspective being that 
you served our great State not only on the Federal level but 
now on the State level.
    Transportation is obviously vitally important to not just 
our State but the entire country. It is one thing that in the 
constitution that definitely specifies this is the area that 
Congress has control over.
    So Governor Fallin, what an honor it is to have you back in 
DC, and I look forward to hearing your testimony.
    Mr. Shuster. And with that I ask unanimous consent that our 
witnesses' full statements be included in the record.
    And with that, yield to the Governor of the great State of 
Oklahoma.

TESTIMONY OF HON. MARY FALLIN, GOVERNOR, STATE OF OKLAHOMA, ON 
BEHALF OF THE NATIONAL GOVERNORS ASSOCIATION; STUART LEVENICK, 
  GROUP PRESIDENT, CATERPILLAR, INC.; HON. KASIM REED, MAYOR, 
 CITY OF ATLANTA, ON BEHALF OF THE U.S. CONFERENCE OF MAYORS; 
 AND LAWRENCE J. HANLEY, INTERNATIONAL PRESIDENT, AMALGAMATED 
                         TRANSIT UNION

    Governor Fallin. Thank you, Mr. Chairman. It is a great 
pleasure to be here.
    And Ranking Member Rahall, it is good to see you.
    And, Congressman Mullin, thank you very much for that kind 
introduction.
    And members of the committee, it is a great pleasure to be 
here today on behalf of our Nation's Governors in front of the 
Transportation Committee.
    As chair of the National Governors Association, Governors 
want to work with our Federal partners on the surface 
transportation reauthorization. As a former member of the 
Transportation Committee and now having the perspective of 
being a Governor, I understand now more than ever the 
importance of Governors and the NGA and the Transportation 
Committee working together on the surface transportation 
reauthorization.
    Our Nation's transportation infrastructure systems support 
and enhance economic growth of the States and the country, 
sustain our quality of life, and enable the flow of interstate 
and international commerce.
    However, previous surface transportation reauthorizations 
and their string of legislative extensions created uncertainty, 
not only on the national level but certainly on the State 
level. Our States took action to maintain and develop our vital 
infrastructure. But, Governors agree that successful State 
action does not justify Federal disengagement.
    Governors believe that surface transportation requires both 
a long-term vision and funding stability to provide for our 
Nation's diverse mobility needs. As CEOs of our States, 
Governors understand the fundamental importance of surface 
transportation to economic competitiveness and job growth. 
Continued Federal investment is necessary to leverage and 
create a cohesive transportation system across the Nation. The 
burden of maintaining the Nation's entire transportation 
network cannot be left only to the States.
    Federal, State, and local governments must partner to 
invest in quality infrastructure to meet our Nation's 
transportation needs. Investing today in transportation is 
investing long term in our economic vitality and also in the 
safety of our citizens. Of course, infrastructure includes more 
than just transportation, and I want to take a moment to 
commend this committee on the passage of the 2013 WRRDA bill. 
This reauthorization remains an NGA priority.
    Stewardship of our water infrastructure resources is vital 
to safety, environmental protection, and economic development. 
We also recognize that our Nation's infrastructure systems are 
interconnected. State-of-the-art ports and waterways must have 
state-of-the-art highways, transit, and rail systems.
    As Congress begins its work on MAP-21, Governor support 
continuing the user-pays principle to guide transportation 
funding and placing all options on the table for evaluation. 
Governors support Federal funding mechanism designs to maintain 
reliable, long-term funding certainty. Governors support 
outcome-oriented performance measures developed by State and 
localities. We believe levels of Governments must cooperate to 
improve and ensure safety and security of our infrastructure 
systems.
    Governors appreciate that MAP-21 reflected many of the NGA 
priorities. Governors supported the preservation of innovative 
financing tools, such as public-private partnerships and the 
expanded capacity of the Transportation Infrastructure Finance 
and Innovations Act. Let me emphasize that States need Federal 
funding stability and certainty to pursue long-term planning 
and project delivery.
    Now, next I want to mention municipal bonds, because they 
have assisted our States, our cities, and our counties in 
financing our infrastructure needs. As you know, the Federal 
Tax Code includes an exclusion from income on interest earned 
on municipal bonds. Ending or capping the Federal exclusion 
from income for municipal bond interest would increase the 
costs of financing infrastructure projects. It would trigger 
higher interest rates by at least 20 basis points. And that, in 
effect, would chill the project, or trigger higher taxes on 
citizens to fund our infrastructure needs.
    There have been studies that show proposals to cap or 
eliminate the interest exclusion on State and local tax 
deductibility would bring a net loss of approximately 417,000 
jobs, and the loss of $71 billion in real gross domestic 
product over 10 years. Governors believe Federal taxes, and 
Federal laws or regulations should not increase the costs of 
States to incur the issue of municipal bonds or decrease 
investor appetite to purchase them.
    Infrastructure requires an intergovernmental partnership 
and all levels of Government have a crucial role to play to 
achieve overall success. Governors look forward to working with 
this Congress and with this committee on the reauthorization of 
MAP-21.
    Thank you very much, Mr. Chairman.
    Mr. Shuster. Thank you very much, Governor.
    And I would be remiss if I didn't call out a name of your 
long serving Secretary of Transportation, Gary Ridley. I see 
him over there. As I think he may be the longest serving State 
DOT Secretary in the United States. So watch out. It is good to 
have you here, a real expert with us here today.
    Next, Mr. Levenick, from Caterpillar. Please proceed.
    Mr. Levenick. Well, Chairman Shuster, Ranking Member 
Rahall, and distinguished members of the committee. Thanks very 
much for the opportunity to testify today about the 
reauthorization of our surface transportation system and the 
importance of our transportation infrastructure to companies 
like Cat, as we do business and compete in the global 
marketplace.
    My name is Stu Levenick. I am a group president for 
Caterpillar, responsible for leading the company's customer and 
dealer support organization, which provides integrated supply 
chain, transportation services, service parts logistics to Cat 
dealers and customers around the world.
    It is probably no surprise to anybody in the room that a 
company like Caterpillar, manufacturing bulldozers, is a big 
supporter of infrastructure investment. But for us, and my 
purpose here today is not just about selling more machines and 
jobs, it is about the drag our poor infrastructure has on the 
U.S. economy, our ability to efficiently import and export, and 
consequently the adverse impact it has on U.S. competitiveness.
    As one of the America's leading exporters, we are keenly 
aware of the importance of exports for job creation and 
economic expansion. We also understand how absolutely critical 
it is to have an effective supply chain if we are to maintain 
our global leadership as a U.S. manufacturer.
    Today, Cat exports to every region of the world. 2012, we 
exported over $22 billion. These are products from the United 
States which must travel through multimodal transportation 
systems that includes; roads, rail, water, and air. The 
condition and integration of these various models have a 
significant and direct impact on our ability to move products 
quickly and efficiently at the lowest possible cost.
    As the world marketplace expands and our Nation faces 
increasing competition from around the world, our ability to 
move goods as quickly and efficiently as possible takes on an 
even more important role. Our transportation system is the 
backbone of our economy. Economic opportunities are directly 
tied to the efficiency and reliability of this system, but we 
are relying on investments made decades ago to sustain our 
growing and changing economy.
    Our transportation network is aging, it is underfunded, and 
we must renew our commitment to this system if we are to ensure 
global competitiveness in the 21st century. The big question is 
what does it mean for American competitiveness. Our interstates 
and highways, for instance, provide a particular challenge for 
the movement of Cat products through the U.S. logistics 
network. Congestion and capacity constraints are a significant 
concern with high levels of traffic in major metropolitan areas 
affecting turn times and on-time performance.
    Similar to highway congestion, bridges present a comparable 
problem with inadequate capacity for large loads or traffic 
flows, bridges that were built early in the transportation 
industry present the largest problems with regard to height and 
age.
    Our Nation's rail network is increasing seen as an 
attractive cost-effective way to alleviate growing passenger 
and freight congestion on our highways. It is also a vital 
component of our integrated transportation system. However, 
current railroad infrastructure limits Cat's transportation 
options. Many rail lines, bridges, tunnels cannot accept the 
physical height and width attributes of our products, and 
accordingly, a great number of rail switching yards and 
terminals are required, leading to added delays and increased 
costs.
    Like road and rail networks, our ports are also posing 
significant challenges for exporters and logistics 
professionals. Because U.S. port capacity constraints, outdated 
manual processes and communications, and a lack of integration 
and automation, Caterpillar has come to increasingly Canadian 
ports for both import and export containers due to improved 
transit times and costs. Approximately 40 percent of Cat's 
imports and exports now move through Canadian ports.
    Finally, our aviation system, which was once the envy of 
the world, today is operating with substandard technologies and 
facing significant capacity constraints. As an example, we 
annually ship about 70 million pounds of mission-critical 
service parts globally through Chicago O'Hare. These parts are 
typically needed to a customer's site within 24 hours. Last 
year, Chicago O'Hare airport overall on-time arrival was about 
75 percent, in other words, one in four flights experiences 
some sort of delay. This significantly impacts our ability to 
satisfy customers and service our products in the time 
customers require.
    In summary, our transportation system, roads, rail, water, 
and air is aging, inefficient, and in serious need of 
reinvestment. This reality leads to increased costs and less 
efficiency, impacting and reducing our competitiveness around 
the world. Our aging infrastructure and shipping inefficiencies 
it creates has added an estimated 3 to 4 days of transit time, 
costing Caterpillar millions of dollars in cash flow annually.
    America needs a multiyear, sustainable surface 
transportation reauthorization so we can begin to rebuild our 
infrastructure and get back on the road to global 
competitiveness.
    Mr. Chairman, Ranking Member Rahall, and the members of the 
committee, thanks for the opportunity to share with you the 
views of Caterpillar on this crucial topic. We stand ready to 
work with you and your colleagues in Congress to move surface 
transportation reauthorization forward.
    Thank you.
    Mr. Shuster. Thank you very much, Mr. Levenick.
    And with that, Mayor Reed, please proceed.
    Mr. Reed. Good morning, Chairman Shuster, Ranking Member 
Rahall and members of the committee.
    I am Kasim Reed, the mayor of the city of Atlanta. I want 
to tell you how grateful I am for having the opportunity to 
appear before you on behalf of the United States Conference of 
Mayors, representing nearly 1,400 cities across America with 
populations of 30,000 people or more.
    Increasingly, our success as a country will depend on how 
we address our transportation needs and other infrastructure 
needs in our metropolitan areas. We are fortunate because we 
are seeing genuine leadership out of this committee. As mayor, 
I can assure you that nothing is more important than investment 
in our water and our transportation systems.
    Now I happen to be the mayor of a city with the busiest 
passenger airport on the planet Earth, Hartsfield-Jackson 
Atlanta. Last year, we handled about 95 million passengers. 
That is about 10 million more than Beijing's airport. My home 
State of Georgia has one of the fastest growing ports in the 
United States of America, the port of Savannah. So the work of 
this committee is vital to me as a leader of the capital city 
of the State of the Georgia and vital to Georgia as well.
    As you prepare for renewal of the Federal surface 
transportation law, I ask that we work together to expand our 
investment and avoid simply flat-lining our commitments. At the 
Conference of Mayors, we have found that over the next 30 years 
your metropolitan areas will grow by 84 million people. I do 
want to be clear when we use the word metros, we don't simply 
mean cities. That is both cities and the suburbs that surround 
the cities.
    Mr. Chairman, this is more people than the current 
population of my home State of Georgia, your home State of 
Pennsylvania, Arizona, Indiana, Illinois, Michigan, North 
Carolina, Tennessee, and Virginia combined. So I think that we 
can make a strong argument that the country's future health is 
going to be tied to having very healthy metropolitan areas. And 
we should take a bipartisan approach to them because this isn't 
simply about cities, it is also about our suburbs as well. And 
I believe the work that you all are doing on the transportation 
bill really does represent the most thoughtful, effective 
method to expand well-paying jobs in our cities and our metro 
that we will have in some time.
    MAP-21 made important policy reforms by consolidating 
programs, improving project delivery, providing for greater 
accountability, and assisting project sponsors with more 
financing options. But we need the stability of a long-term 
bill. And I am hopeful that you will take that into 
consideration as you move this bill forward.
    I also want you to know that mayors across the United 
States of America are prepared in a truly bipartisan way to 
help you carry this water. To get out all over the United 
States of American and explain why the work you are doing is 
essential to the competitiveness of the greatest country on 
Earth.
    I also respectfully ask that you provide cities some 
flexibility and a larger role at the table. We want to be 
partners with our Governors. And we understand that that will 
mean being junior partners, but we would like to have a seat at 
the table and to ensure that cities have a voice as well. We 
believe that when cities are directly at the table along with 
Governors in States that we can actually leverage more 
resources and make the dollars that you provide States and 
cities go further.
    The Atlanta region is one of the largest and fastest 
growing metropolitan areas in the Nation. Our principle transit 
system, MARTA, is the 9th largest in the country. Your bill 
will help it as well. So on issue after issue, we think that we 
can make a case that we will be a strong partner to you. And we 
also think that the bill that you are moving will provide more 
verifiable jobs if we get a long-term bill than almost any bill 
that will come through Congress.
    So, Mr. Chairman, I want to thank you for your leadership, 
Ranking Member Rahall, I want to thank you for your 
relationship certainly on the WRRDA bill, and I look forward to 
seeing the same kind of energy and commitment to the surface 
transportation bill.
    I am very grateful to you. Thank you.
    Mr. Shuster. Thank you, Mr. Mayor. Appreciate that. I also 
appreciate your commitment to helping us go out across the 
country to educate the American people. I think that is really 
where it starts and then moves into the halls of Congress. So 
thank you for that commitment.
    With that, Mr. Hanley, please proceed.
    Mr. Hanley. Thank you, Mr. Chairman. Congressman Rahall. 
Appreciate the opportunity to be here to testify.
    I want to speak for a moment about the transit crisis in 
America that has gone on for the last 5 years. As a consequence 
of the downturn in the economy and the fact that Federal 
funding has been flat-lined, essentially, to our cities. With 
the fall in revenue coming in from tax collections in our 
cities and counties, we have seen a true crisis in American 
mobility. We have seen 90 percent of the cities in America have 
to raise fares and cut service. Sometimes cutting service in my 
hometown of New York, that had run for 100 years in that city, 
because of this lack of funding available to keep the systems 
running.
    I represent about 200,000 people who work in the transit 
industry in the U.S. and Canada, and our members are the 
frontline people who transport people in communities. They are 
the urban tax collectors who pull into bus stops every day and 
have to explain to people why their service is being cut at the 
same time that their fares are going up. This is in a period 
when there as been a bipartisan agreement in Washington that we 
can't raise taxes on millionaires, we just can't do that 
because that would wreck the economy. And yet as we watch 
inequality gnawing at American society, we ignore the fact the 
decision to not fund transit is one that has caused taxes to be 
increased again and again deliberately on the poorest Americans 
who need transit to get around.
    The other thing that is important is that Congress should 
understand that the notion that you can't raises tax to provide 
transit service, is walking in the exact opposite direction of 
the American people. Every time a referendum is put up around 
this country to raise taxes, people vote for it. Seventy 
percent of the referenda that had been proposed and actually 
voted on over the course of the last 5 years, where taxpayers 
have an opportunity to raise their taxes to support transit, 
they vote yes. These referenda are passing. That is a clear 
signal from the American people that they not only want more 
transit but they are prepared to pay for it.
    But more significantly the coming crisis, the one that is 
looming, if you think there was a problem in Fort Lee, New 
Jersey, because of some political shenanigans regarding 
traffic, wait until you see what is about to happen in America. 
Over the course of the next 15 years, our cities are going to 
grow exponentially. There has been already an increase in the 
population in cities; in my own city in New York, we have grown 
to over 8 million people again. The projection is the 
metropolitan area in New York will be 20, almost 21 million 
people in 12 years. Where will people get transit to get 
around?
    And what about the young people in America? This may come 
as a surprise, but young people in America not only are moving 
back into cities, but they are rejecting car travel. Fewer, as 
a percentage of the population, fewer young people today hold 
drivers licenses than at any time since John Kennedy was 
President of this country. That is a trend that we are missing 
if we don't start to project a plan for how we are going to get 
people around. So imagine all these growing urban centers with 
young people who have no cars who have no licenses who are 
flooding into transit systems. And that is the case in many of 
our larger cities.
    Even more shocking, the projection for Phoenix. If anybody 
believes this is simply, you know, old urban cities. Phoenix is 
projected in several years to have a population as large as the 
current population of New York City. Eight million people will 
live in the Phoenix metropolitan area soon. How are those 
people going to get around? America cannot depend upon cars. 
You know, people say that Americans are in love with their 
cars, and I think the fact is that is not true. They just hate 
everything else. And it is because everything else does not 
serve their interest.
    There have been studies that have shown. Matter of fact in 
our testimony we talk about the fact that Brookings Institute 
found in a typical metropolitan area, residents can only reach 
30 percent of jobs via transit within 90 minutes. Now, knowing 
that, understanding that, how could anyone think that it is 
just a love affair between the American people and their cars. 
It is not.
    We also want to say that we will work with you, we want to 
work with Congress to make this happen. In 2012, 56 Members of 
Congress or the Senate campaigned with us, bipartisan, 
Republicans and Democrats, worked with us around the country to 
build rider support to voice their interest in transit. More 
people, by the way, board our transit systems in America in 3 
days than all the people that Mayor Reed talked about going 
through the Atlanta airport, not to say we shouldn't fix the 
Atlanta airport. But the magnitude of this is huge. There are 
35 million boardings a day in the United States of people 
riding transit. There should be many more. But these are 
voters, these are people who need more attention to their needs 
as American citizens.
    So we are organizing those riders. We have 91 cities across 
the country that have now formed rider groups. You will be 
hearing from them. And we would ask you to join us in the month 
of May when we go out and campaign throughout our cities and 
throughout rural areas to try and get more attention to 
transit, more funding for transit, and essentially a better way 
of life for American people.
    Thank you very much.
    Mr. Shuster. Thank you, Mr. Hanley.
    And knowing that the Governor has about 10 more minutes, I 
am going to start off by asking her a couple of questions, and 
I think Ranking Member Rahall, if you have one, I think we can 
get it in here and we can get her out on time.
    By the way, I don't know if it was mentioned here, you are 
the chairman of the National Governors Association, and we are 
very, very proud of you of course for being Governor but also 
leading that great organization. So we will make sure we get 
you out of here on time.
    In your testimony, you mentioned that Oklahoma is globally 
competitive because of the Nation's transportation network. Can 
you explain some of the facilities that you rely on that are 
thousands of miles away? And I have to admit to you, when 
Markwayne Mullin took us up to the Port of Catoosa, I did not 
realize it was the largest inland waterway in the country. So 
again we learn everything new. It is good to be up here and 
travel. If you could just talk about how the Nation's 
infrastructure affects or impacts positively or negatively 
Oklahoma.
    Governor Fallin. Absolutely, Mr. Chairman and Ranking 
Member Rahall, it is great to see you. It is great to be back 
in front of the committee again. And it is interesting to see 
the other side of the story once I have been on the 
Transportation Committee and now as a Governor actually working 
with Federal regulatory entities and Federal funds and now on 
the State level. And trying to decide how you parcel and part 
those Federal funds, versus the State funds, and how you 
combine the two and work together.
    You know, Mr. Chairman, you mentioned about how important 
it is that we have reauthorization of the transportation bill. 
But one of the things I want to emphasize, that I have seen on 
the State level is, that we need certainty. We need certainty 
in our States. When there are short-term extensions, when there 
are continuing resolutions, when there is no permanency, no 
long-term vision for funding for our Nation's infrastructure, 
whatever type of infrastructure that it might be. Whether it is 
the highways or bridges, our ports, our transit, our airports, 
addressing our congestion problems, that affects our States and 
it affects the certainty within our marketplace. It affects our 
employers, it affects their ability to hire people, to gear up 
for say, construction projects like our I-40 cross-town 
interstate that you came to see in our State.
    And so as you are working through the committee on the MAP-
21 reauthorization, we just ask that you look at, first of all 
a long-term solution, giving us some certainty in our States, 
certainly addressing all of the concerns that we have heard 
from our various people testifying today, and that you allow us 
the flexibility, innovation. There is some great innovation 
going on among the States, some great examples of ways that we 
can stretch our dollars.
    But also understand that States can't pick up the load by 
ourselves. That we have to have a national vision for national 
transportation infrastructure system.
    Mr. Shuster. Thank you very much, Governor.
    Mr. Levenick, can you talk a little bit of some of the 
specific experiences you have moving your goods out of the 
country on the system? What are the bottlenecks? I know you and 
I had a discussion before, I kept using Caterpillar as an 
example of shipping out of American ports. And then you told me 
you ship a lot of it out of Canadian ports because they are 
better equipped to handle, they are easier, they are less 
expensive. So could you talk about some of the issues that you 
face, whether it is roads, rail?
    Mr. Levenick. Thank you. I think the real issue, and it 
talks a little about the what the Governor just addressed is 
that for us, it is not any one thing. We look at the 
transportation as a network. And so if you look at highways 
that have bottlenecks, if you look at old bridges, if you look 
at old rail that can't handle the size, the ports that aren't 
deep enough.
    Ironically, Caterpillar is providing the equipment that is 
widening the Panama Canal. It is sort of an ironic twist of 
fate that once that is widened, some of the ships that will be 
able to pass through that canal may not be able to dock at U.S. 
ports and benefit exports from the United States.
    As we look at ports, there is some pretty good detail in 
the testimony, but 40 percent of our exports and imports come 
through Canadian ports today. Port of Montreal is about 3 days 
faster than Norfolk, Virginia, and Prince Rupert out of British 
Columbia is about 2 days faster than Long Beach for us. And 
that time, of course, is money and it is costs. And as we 
compete in the global economy, that matters. And so it is not 
just one thing. If the network doesn't work together as an 
integrated whole, it is a problem. And that is what you see, 
that is what we deal with every day. And we are just a proxy 
for any American manufacturer.
    So again. I come back to our plea is that and again echo 
what the Governor said, a multiyear, sustainable plan that 
gives certainty to people making investments and at the same 
time drives a line in an integration. That is a role the 
Federal Government can play to really help this thing work as 
an efficient network. That will readily get us back to 
competitive advantage.
    Mr. Shuster. Thank you very much. I would now yield to the 
ranking member for questioning, keeping in mind Governor Fallin 
has 5 minutes.
    Mr. Rahall. Thank you, Mr. Chairman. First I ask unanimous 
consent my opening comments be made part of the record. And I 
apologize for being tardy. My comments made part of the record, 
my opening comments.
    Mr. Shuster. Without objection, so ordered.
    Mr. Rahall. Governor Fallin, welcome back. Good to see you 
once again. You served not only on this committee, but 
Resources Committee as well, which I chaired at one time. And I 
know you have been through some difficult times since then as 
Governor because of natural disasters and you have done a 
tremendous job of leading your State through those disasters. 
And good to see you here today.
    You mentioned in your testimony, you kind of warned Members 
not to misinterpret what some of the States are doing on their 
own, which are very commendable actions, as far as raising 
revenue, they are not just waiting for us to act here in 
Washington, but they are proceeding on their own. But you said 
don't misinterpret that as a signal to devolve everything back 
to the States and renege on our Federal role. Could you comment 
just briefly further on what that might mean? I know we heard 
from Tom Donohue, the Chamber of Commerce back early in this 
hearing process, we heard from the Laborers' International 
Union president, from Governor Rendell, that there has to be a 
Federal role in transportation. We cannot just devolve, as some 
Members of this body have preached, back to the States. What 
are some other negative repercussions if that were to happen?
    Governor Fallin. Ranking Member Rahall, it is a great 
question. And it is a very important question because I do 
think there has to be a partnership between the Federal 
Government, States, and localities within our individual States 
to work together.
    We certainly do need to have a national vision for our 
transportation infrastructure because we are 50 States and the 
territories that have to work together to develop a seamless 
transportation system in all the different realms of 
transportation that we have in our Nation.
    But the States can't pick up all the costs. And certainly 
as you have gone through sequester and Government shutdowns and 
other things that you have had here in Congress, States have 
had to make some tough choices when it came to spending and 
being able to meet some of our funding needs. And we have done 
some innovative things.
    So I guess what I am saying is that we do need some 
flexibility. We do have some great ideas within our States that 
I think could be helpful and sharing those best practices with 
Congress, which many times in front of this committee we have 
had various people testify, like my Secretary of 
Transportation, Gary Ridley, who has been before this committee 
many times when I was here. But to understand that we do need 
to have a national system that assures that we have safety 
within our various systems, whether it is rail, whether it is 
ports, whether it is our airports or commercial air, our roads 
and bridges throughout our States, whatever form it might be, 
transit.
    But we also need to have some flexibility within our States 
because each State is different, each State has different 
needs, each State has different funding sources, each State has 
different crises that we have to deal with. Each State has 
different needs. I was listening to the gentleman talking about 
transit and the need for that. And certainly we understand 
that. But in Oklahoma we are a very rural State, we have a lot 
of roads within Oklahoma. And so we don't have big transit 
systems because Oklahoma City isn't as big as Atlanta. So each 
State is different, each State has different needs. And we are 
just asking that you consider that as you are working through 
the various rules and regulations in the MAP-21 
reauthorization.
    Mr. Rahall. Thank you very much, Governor.
    Let me turn quickly to Mr. Hanley. And certainly want to 
thank you for all that you do and what you do for the health 
and safety of our transit workers, which is paramount on all 
our agendas. What impact would a slash in Federal transit 
budget have on the workers that you represent? And on the 
riders?
    Mr. Hanley. Well, again, what we have seen over the course 
of the last several years simply with no increases in Federal 
funding, and also, by the way, a bias in Congress against 
operating aid for transit. In times of urgent economic need, we 
believe that the Congress should step up and fund some 
operating aid to keep transit systems running when the economy 
is not only in collapse nationally but at the local level.
    But we have seen over the course of the last 5 or 6 years 
more layoffs of transit workers than we had seen since World 
War II. Chicago, for example, a city that depends on transit, 
cut 12 percent of its transit in 1 day in 2009 because of the 
economic downturn. We are a better country than that. You know, 
we can't abandon riders in the streets. And at a time when the 
economy really needs more people at work, it was kind of silly 
not to keep transit workers working as well.
    So if there are any cuts in transit obviously those same 
two groups are going to feel it the most, the people who 
operate the systems, the drivers and the mechanics and the 
people who sell tokens and other fare media, and also the 
people who ride and depend upon transit every day.
    Mr. Rahall. Thank you. Thank you, Mr. Chairman.
    Mr. Shuster. With that, it is 10:45. Governor Fallin, we 
will let you excuse yourself. And again we are really proud of 
you being the Governor of Oklahoma and of course your new 
leadership position at the National Governors Association. So 
thanks for taking the time to be here with us today and I look 
forward to working with you as we move forward on the next 
surface transportation bill this year. Thank you.
    And with that, I yield to Mr. Petri for questions.
    Mr. Petri. Thank you, Mr. Chairman. Governor Fallin and 
some of the other panel members referred to this, but I wonder 
if you could expand on it a little bit. For some years now, 
Congress has been drifting away from what we call regular 
order, reauthorization of 5- and 6-year bills in major sectors 
of our economy. We had a couple of dozen short-term aviation 
reauthorizations before finally adopting a multiyear bill. 
Currently in the highway area, we are on a relatively short-
term authorization.
    In any event, what difference does it make if we just kick 
the can down the road and don't do our job, we still seem to 
have some sort of a program in place. Why is a 5- or 6-year 
framework important for our country? What difference does it 
make? Would each of you be willing to address that a little 
bit?
    Mr. Reed. The instability stifles investment. So when we 
don't have a 6-year plan, and we are planning a new runway at 
Hartsfield-Jackson, or a new terminal, we are taking on 
projects that are multiyear projects. And it helps us when we 
know what is going to be available. Good, bad, or indifferent. 
I could make the same argument regarding the port in Savannah, 
where we are making another long-term investment and we are 
going to have to expand the roadways and arterials to deepen 
the Port of Savannah.
    Caterpillar just located a site in Georgia, and one of the 
reasons that they did was the port. So the bottom line is, is 
the stability that a 6-year bill or a longer term bill gives us 
is it removes instability and allows us to go and invest 
knowing what the situation is. And that is healthy because it 
stimulates our ability to make investments that employ people. 
So the biggest economic generator in the State of Georgia is 
Hartsfield-Jackson Airport. It employs about 56,000 people 
directly. And the decisions you make here give me a sense of 
what we are going to need to do on our side of the house in 
terms of what our responsibilities and obligations are.
    So the difference between a 2-year bill and a 6-year bill 
represents the difference of tens of millions of dollars being 
invested locally, at the municipal level and at the State 
level.
    Mr. Levenick. I take the same angle that the mayor did and 
just say that the same applies to the contractors, the 
architects, the designers that are building this 
infrastructure. They won't make investments in people, 
products, material, without a long-term view as to what the 
future holds. It is, you know, basically pretty simple. It is a 
result. You see people relying on what they have got, on rental 
of equipment, not making the hiring decisions that you would 
normally see if they had a long-term plan with certainty.
    I would also say that, you know, MAP-21, while it is only a 
2-year extension, many of the provisions or regulatory 
provisions that went into that bill I think will be very 
effective going forward if applied to a longer term legislation 
with certainty. The efficiencies, the accountability, the 
flexibility that is built into that I think are real good 
reforms that will actually make things much more efficient when 
applied to a long-term commitment on funding.
    Mr. Hanley. I agree as well. Significantly, in our major 
cities, real estate development is always built around transit. 
And people often forget that. But the value of having a long-
term plan is that first it enables people who start to imagine 
better things for their cities to put them in place, and, 
secondly, it certainly attracts investment from people who are 
interested in developing the real estate and moving to 
different parts of town.
    It is vital that we have a long-term plan for--and 
particularly when you think about what is going to happen to 
our cities over the course of the next 15 years, as the 
population grows throughout urban America, we are going to need 
a transportation infrastructure in every one of our cities to 
make of work. And you can't have that if you do this one year 
at a time. You needto have a long-term plan.
    Mr. Petri. Thank you. Just real quickly. If we are kind of 
not making real progress, if we are you know, a fight between 
the House and Senate, is it important to just do something for 
3 months or to have crisis and deal with it and funding a major 
6-year bill because of a benefit of doing that?
    In other words, is it better to just keep things calm and 
go along even if there's inadequate framework or is it better 
to face up to our problems and put a major 6-year bill in 
place.
    Mr. Levenick. Well, I guess from my perspective, the reason 
we are here is to make a strong case that this is about the 
economic vitality of the country. We are losing ground against 
the global economy. So I guess from Caterpillar's perspective 
it would be worth a very good debate and dialogue. I will let 
you guys work the details, but what we need is a multiyear, 
multimode and transportation system with certainty that really 
addresses the issues that we are all describing here.
    Mr. Reed. I would certainly err on the side of short-term 
pain for a long-term promise and stability.
    Mr. Hanley. And I don't think we need to have a fight. I 
think we all ought to agree. No committee in Congress has ever 
been more bipartisan than this committee, historically, and I 
think that is a proud history and you should all embrace it.
    But look at what is happening around the world. My God, the 
amount of money that China is investing in its transportation, 
not just transporting goods, but also transporting people. 
America cannot afford to let itself become a third world 
country, and these are the kinds of things that we need to do 
to step up and make it happen.
    Mr. Shuster. Thank the gentleman. Ms. Norton is recognized 
for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. I was really 
struck by how much the witnesses had in common and over and 
over again there was talk about stability and long-term 
funding. Indeed, Mayor Reed, I don't know how with 2-year 
funding that you could do much more than patch a road. Because 
it was a 2-year patch funding that essentially was out of a 
trust fund that was hardly there. It needed general revenue----
    Mr. Reed. Sure.
    Ms. Norton [continuing]. Simply to get over its own cliff. 
But I think we ought to drill down and stop simply talking 
about cliffs and disaster and let's say what we really mean.
    By 2015, this trust fund, which already needed revenue in 
order to fund it this year, will go from $53 billion to zero. 
What I think we are most in need of are ideas about how to fund 
a 21st-century surface transportation system with transit, 
roads, with everything that we need in it.
    The user fund was based on the old car economy. So even if 
the user fund was as robust as it could be, it has outlived its 
usefulness. People like me drive a hybrid. In other words, we 
have had success with our energy policy, so there is less 
funding for the trust fund. As successful as that was during 
the period of Eisenhower, we need another way to fund roads.
    Have you thought about what kinds of things the Congress 
should do? You understand that funding has to begin with 
funding the whole country, and has to begin here. Should we 
depend on users, the basis for the trust fund? Should we have 
another framework for funding our vital transportation? Have 
you given any thought to that?
    Do you believe that taxpayers would fully fund a new way to 
do more than patch a road for every couple years or every year?
    Mr. Reed. Thank you for the question, Congresswoman, and 
thank you for your leadership of the District of Columbia for 
so many years. I have given it thought, and I think that what 
we need to do is to have a conversation in this committee where 
we put all options on the table. And then people who are the 
beneficiaries of your legislation need to step up once you all 
decide a direction and get out here and help you sell it and 
win it and not have you up here alone on a cliff.
    Now, I know that that is going to mean tough negotiations. 
But the reason that I wanted to come here today is because I 
saw the substantial work that was done on WRRDA, which was some 
of the most serious legislation that has come out of Washington 
in some time. And so it suggests that under Chairman Shuster's 
leadership and under Ranking Member Rahall's leadership, that 
you can get a serious bill done.
    So I would advocate putting all of the options on the 
table. In communities like mine, we certainly are willing to 
take on our own share to fund what we want. And we typically 
would do it through the form of referenda. Because I believe 
that, you know, when you want more money for public projects, 
it is OK to go ask for folks. But we have got to be given 
flexibility.
    And finally, Congresswoman, I need you all's help because 
mayors have to be at the table. When you don't involve your 
mayors, you are losing Federal leverage and Federal money. Your 
Federal dollars do not go as far.
    In one project in the city of Atlanta, we invested $365 
million in a project called the Atlanta BeltLine. It has 
leveraged $1 billion in private investment, and I can get 
projects done faster at the local level than you can at the 
State and Federal level.
    So in summation, I would ask that you put all of the 
options on the table, I would ask that you get a 6-year bill 
because a 2-year bill is not very helpful to us, and I would 
ask that you give serious thought to flexibility and adding 
mayors to the mix because we can get projects out and done 
faster than you can at the Federal level and State level.
    And I think that this committee has the ability to play the 
most powerful role, or one of the three most powerful roles in 
expanding well-paying jobs at a time when we need well-paying 
jobs and protecting our competitiveness. I think we can out-
compete anybody, but right now if we don't start long-term 
planning, we are just giving it away. I think we are just 
giving our leadership position away.
    Mr. Hanley. When I was in school, we had a class called 
Citizenship. And I assume that if they teach that class today, 
it's called Taxpayership. Because suddenly somewhere along the 
line we switched from being citizens that cared about each 
other and cared about our community and we became taxpayers who 
wanted all that money kept to ourselves. I think Congress needs 
to be a little more bold on this.
    If we are going to have a vision for America that involves 
a better economy, then we have to find a way to pay for it. You 
just heard from a corporate titan, Caterpillar, that we need 
better highways, that Caterpillar needs better highways. Well, 
the folks that are making the money at the top ought to figure 
out a way to pay for this. You know, one of the proposals that 
is in Congress right now is to tax stock transactions.
    Right now, by the way, we can all go out and buy, let's 
say, a broom this afternoon and pay a tax on it because there 
is a tax on the broom. But if you buy the company that made the 
broom, there is no tax. So that seems kind of silly to me. When 
the company who is getting the profits from the roads we build, 
the transit we provide for people to come to work. And again I 
know this might rub against the grain for some folks who have 
adopted the idea that we are no longer citizens but taxpayers. 
And what I am saying to you is we ought to find a way to do 
this and remember that at the end of the day, if we are not 
citizens, we have no country.
    Mr. Shuster. Thank you, gentleman. With that, Mr. Duncan is 
recognized for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman. A few years 
ago, when I chaired the Highways and Transit Subcommittee, the 
Federal Highway people had two studies saying that the average 
Federal highway projects take 13 years. One study said 13 
years, one study said 15 years from conception to completion. 
And Mayor Reed, when I chaired the Aviation Subcommittee, the 
Atlanta airport people, this is many years ago, they came to us 
and told us that their newest runway, which is now several 
years old, took 14 years from conception to completion. It took 
only 99 construction days, and they were so relieved to get all 
the final approvals, they did that in 33 24-hour days. What I 
am getting at is we have tried in some of these bills to do 
what is referred to as environmental streamlining. Most of 
these delays have been on the environmental rules and 
regulations and red tape.
    I would like to ask all the witnesses, do you see that 
those efforts have done much good? Are these projects still 
taking too long? And I noticed Mayor Reed was talking about 
that he can do things much faster at the local level. Most of 
the developed nations are doing these projects in half time 
that we are. Especially in China and Japan, they are doing 
probably in a third of the time.
    Mr. Reed. You are right.
    Mr. Duncan. Are these project still taking too long?
    Mr. Reed. The answer, Congressman, is that we are certainly 
able to deliver projects faster. So this committee helped me 
recently build a streetcar expansion in the city of Atlanta. 
And we are going to bring it in, on budget and relatively close 
to schedule, and we are going to regenerated at several 
hundreds of jobs, and that was the demand. So there is no 
question that we can do things faster.
    If you look at the time that it took for us to complete and 
construct our fifth runway, and our airport handles about 10 
percent of domestic U.S. travel. Because we are the home of 
Delta Airlines. The things that you all did to help us 
streamline our processes helped a great deal.
    And so the straight answer to your question is yes. And 
then, you know, the second request would be just to continue to 
help us move faster and then to push real hard to get us a 6-
year bill because we need to make multiple decisions at the 
same time.
    So the capital project from our airport is a $6 billion 
capital project. And in order to spend those kind of dollars, I 
need to know where we are going to be with our Federal partners 
before I make critical decisions to put thousands of people to 
work.
    Mr. Duncan. All right, thank you.
    Mr. Levenick, do you still see delays; is there more that 
we can do through this committee?
    Mr. Levenick. Well, Congressman, there is probably always 
more that we can do. But I think, at least from Caterpillar's 
point of view, and we are a user of the output of these 
projects, not so much the builders themselves, but the reforms 
that were in MAP-21 I think were roundly viewed as very 
positive. And I think as we move towards a 6-year bill with 
certainty, I think those reforms will have a very positive 
impact and probably allow us to improve efficiency much greater 
than what we have seen in the past. It is always a step in the 
right direction.
    Mr. Duncan. We have got to have cooperation at the State 
and local levels, though, as well to really do what we need to 
do.
    Mr. Hanley.
    Mr. Hanley. We have not experienced that problem in 
transit. If anything, transit projects have been more 
streamlined over the course of the last 10 years than they had 
been prior to that. And certainly we think more attention 
should be paid to the environment, not less.
    Mr. Duncan. All right. Thank you very much.
    Mr. Shuster. Ms. Johnson is recognized for 5 minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman, and our 
ranking member and for calling this meeting, and thanks to the 
witnesses for your testimony. The surface transportation 
legislation is one of the signature pieces of legislation for 
this esteemed committee, and I look forward to cultivating the 
next piece of legislation with my colleagues for the coming 
months.
    I have been a strong supporter of activity yeah and had 
noticed that Governor Fallin had mentioned TIFIA as a benefit 
for her State and mentioned also the possibility of any other 
types of creative financing options. And I would like to ask 
each one of you to tell me why you--whether or not you support 
TIFIA or any other creative financing that we might consider.
    Mr. Levenick. Well, let me start, Madam Congressman. 
Absolutely. I think, as the Governor said, and I will just echo 
again her comments, I think we always want to devolve to the--
to the quick answer, what is the funding solution to make this 
all better, and the answer probably is, and you will know 
better than I, but there probably isn't one. We are probably 
going to need all of them. TIFIA is attractive; the 
infrastructure bank is attractive. Congressman Delaney's got a 
proposal on repatriating foreign deferred taxes that might have 
some legs. Certainly user fees is another one. We are probably 
going to need public-private partnerships. I think it is going 
to have to be comprehensive to really get at what we want.
    So, at least from Caterpillar's point of view, we are open 
to any and all. The ultimate goal for us is an integrated 
network with long-term certainty in a multimodal transportation 
network that improves our competitive advantage globally.
    Ms. Johnson. Thank you.
    Mr. Reed. Congresswoman, I believe that TIFIA is highly 
effective.
    In the State of Georgia, we recently were awarded TIFIA 
funding. It was essential to a major transportation initiative 
in one of the most congested parts of the metropolitan region. 
I can't say enough about that process.
    I think it also represents an extension of Federal 
resources, because unlike the grant approach, it does allow 
States that have strong credit and strong financial resources 
to be allowed to pay the Federal Government back for your 
investment, but I think that TIFIA really highlights the need 
for providing alternatives, and so to the extent that you can 
push out a menu of alternatives that allow us to do more and 
leverage more, I hope that as you consider this extension, that 
alternatives are constantly put on the table.
    My city happens to be a huge beneficiary of the TIGER 
initiative. We have won two TIGER grants. One leveraged double 
the Federal investment. We won a $47 million investment that 
leveraged a $100 million project, and the Atlanta BeltLine 
recently won an $18 million investment that is leveraging $43 
million of local investment. So I think that when you look at 
the jobs that are verifiably created and our ability to pay our 
bills, that TIFIA is an extremely effective project, but at the 
end of the day, we need alternatives with verifiable track 
records.
    Ms. Johnson. Thank you.
    Mr. Hanley. And I think from the workers' perspective, we 
are interested in all kinds of creative ways to finance these 
systems, but one word of caution that I want you to hear, and 
that is that the public-private partnership craze that has 
occurred has resulted in a real attack on American workers. 
And, again, it is fashionable to attack American workers, but 
then let's all talk about we should have equality. I mean, you 
can't have both. You can't attack American workers and then 
gripe about inequality, because that is what created it.
    And what has happened in the public-private partnership 
area in transit is that companies, global companies based in 
England and France--one is a really great story. Veolia is a 
French transit company, a water company also. It is owned by 
the French social security system. And Veolia comes here and 
takes over transit systems, and in every single case, they 
eliminate the American workers' pension, every single case. It 
is their corporate policy that American workers cannot have a 
pension if they work for Veolia, and yet it is owned by the 
French social security system. There is something wrong about 
that, and there is something wrong about us supporting public-
private partnerships that result in degrading American jobs, 
particularly if we are then going to get up together and say, 
you know, we have got to ring our hands about this inequality 
in America. We are creating it.
    Ms. Johnson. Thank you.
    My time has expired.
    Mr. Shuster. Time has expired.
    And with that, Mr. Hanna is recognized for 5 minutes.
    Mr. Hanna. Mr. Hanley, first of all, I am an operating 
engineer, 35 years. I spent a lifetime in----
    Mr. Hanley. Good morning, brother.
    Mr. Hanna [continuing]. Cat equipment. I am going to ask 
you something. You know, I agree with you. States are having--
they are having good outcomes in asking for additional money 
for transit. You are absolutely right. The age of--between 18 
and 34, people are driving increasingly less. We see for the 
first time in the last 10 years numbers miles per person in 
that age group are declining. We know that that is why the 
Highway Trust Fund is in trouble, the diesel tax and the excise 
tax and the gasoline tax, which I guess on gas, you--transit 
gets about 2.8 percent. I also know that people who use mass 
transit are not all poor. I have been in New York City. I am a 
New Yorker. You know, a lot of wealthy people that ride the 
transit. It is a great way to get around and increasingly, as 
you said, 35 million people a year--a day, load themselves, and 
your union does a great job of getting people where they want 
to go safely.
    Why isn't that--why doesn't that lead you to the conclusion 
that people who take mass transit should not pay something to 
the Federal Government toward that, because basically now those 
people who you say are riding--are spending money on gas and 
diesel, they are subsidizing, for lack of a better word, they 
are subsidizing mass transit, and there is no--there is no quid 
pro quo in reverse. Yet you are here asking for additional 
money, which I fully understand, but why shouldn't this--part 
of the problem and the difficulty on this committee is exactly 
as you identified, we are having--we need to have a 
conversation about how to pay this. Why shouldn't ridership be 
part of that when not everybody is disadvantaged who rides mass 
transit all across this country? And increasingly, it is just 
the opposite.
    Mr. Hanley. Where is Warren Buffett when you need him? It 
is true that in major cities like Washington and New York and 
Chicago, we have a much more mixed clientele with respect to 
who rides transit, and certainly there are very wealthy people 
who ride transit every day. There are also very poor people who 
have no choice but to ride transit. I recently had----
    Mr. Hanna. But poor people own cars, too.
    Mr. Hanley. Let me tell you a story. I was recently 
involved in a nonpartisan voter turnout operation in Cleveland, 
and I was on a van who picked up a voter who had to go a mile 
and a half from her house uphill on a terrible day to vote. And 
when she got on, she said, Thank you. And I said, no, no. Come 
on. We are happy to take you up. No, no. Thank you. She says, 
you know, I own a car. But she--yeah, she said, but I can't 
afford the gas. Now, this was in a housing project, by the way.
    Mr. Hanna. But isn't that a case for you to say to her, 
part of your gas tax is going toward this?
    Mr. Hanley. Oh, yeah, but----
    Mr. Hanna. You are riding mass transit, therefore, you are 
not paying for it.
    Mr. Hanley. Well----
    Mr. Hanna. I mean, how do you justify that transfer of 
taxes? I am just--it is just a simple question. I don't need an 
anecdote----
    Mr. Hanley. OK.
    Mr. Hanna. What I need to know is why specifically do you 
think people who ride mass transit have no obligation to pay 
what other people in this country pay through their gas tax, 
diesel and excise tax?
    Mr. Hanley. No, no.
    Mr. Hanna. I am not advocating----
    Mr. Hanley. They do pay. They do pay. They pay huge fares. 
They pay income taxes. They pay real estate taxes that all fund 
transit. It is not as if transit riders are getting a free 
ride----
    Mr. Hanna. But the Federal Government----
    Mr. Hanley [continuing]. But more specifically----
    Mr. Hanna [continuing]. Subsidizes them, but we do not--we 
do--the people who use the rest of the transportation system 
have historically paid directly unsubsidized.
    Mr. Hanley. But that is a myth. That is a myth. The fact is 
that the subsidy per rider is much less than the subsidy per 
car owner in America if you want to look at all the different 
subsidies that go into roads, highways, bridges, et cetera. And 
that is not to take away from the importance of them.
    Mr. Hanna. But there is no payment on the part of people 
who use mass transit back to the Federal Government----
    Mr. Hanley. That----
    Mr. Hanna [continuing]. Yet there is with gas and diesel 
and excise.
    Mr. Hanley. But they pay Federal taxes. That is what they 
do. They pay income taxes.
    Mr. Hanna. We all pay Federal taxes.
    Mr. Hanley. Pardon me?
    Mr. Hanna. We all pay Federal taxes if we are in a bracket 
that allows us to do that.
    Mr. Hanley. OK. But----
    Mr. Hanna. You see, you really don't have an answer for 
that question.
    Mr. Hanley. Well, it is--I don't have a 30-second answer. 
There is a long, complicated answer that absolutely justifies 
huge increases in Federal investment in transit. We would be 
happy to have that discussion you in writing or personally.
    Mr. Hanna. My time is expired. Thank you.
    Mr. Shuster. Thank the gentleman.
    And Mr. Lipinski is recognized for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to go back a few minutes to share, I think, Mr. 
Hanley's exasperation here when one thing he says, look at what 
the--look at what the rest of the world is doing, look what we 
are sitting here talking about. Unfortunately, since SAFETEA-LU 
expired September 30th of 2009, we have struggled to do a long-
term robust spending bill for our transportation 
infrastructure, which we all know is desperately needed. We all 
know that in this room. There has been a lack of we can--you 
know, we can argue here and there about who is more to blame, 
Republicans or Democrats. There is plenty of blame to go around 
and plenty of lack of leadership that I have seen on this 
issue. It is time that we finally do something here.
    Now, MAP-21 was a--was largely a Band-Aid, although it did 
have, as Mr. Levenick had pointed out, had--he pointed out some 
of the good provisions in MAP-21, and then there were others in 
there, so that was good, but it was still a Band-Aid, and we 
face a big cliff at the end of MAP-21 with funding. We need to 
get this done. We need to be serious about it. We need to see 
real leadership on this.
    Now, I certainly thank and congratulate Chairman Shuster 
for his leadership that he has taken as chairman of this 
committee and moving this issue, keeping this issue on the 
front burner and showing that this is an issue that affects all 
Americans and it impacts business. And I think we need to do 
more--a better job of getting that out there, the impact on 
business, the impact on our economy.
    So I thank Chairman Shuster for what he is doing, but we 
really need to finally move forward, decide how are we going to 
fund this. We have got to make the tough decisions to do it.
    Now, Mr. Levenick, everyone knows that Caterpillar--
obviously, you know, Caterpillar will--will benefit from, if we 
have a transportation bill, from what is spent on building the 
new roads, the additional infrastructure, but I think the point 
that I want to most bring out, and you certainly touched on, 
was the impact on the economy as a whole, everyone in the 
economy. We depend on an efficient transportation system. So I 
just want you to--give you an opportunity, Mr. Levenick, to--
you know, to ask you, you know, what is at risk for our 
economy, specifically for Caterpillar, if we continue to 
underinvest in our system as we continue to do?
    Mr. Levenick. Well, thanks, Congressman, for the question. 
I think--simply put, I think we continue to lose 
competitiveness in the global economy. And I cited a number of 
examples about, you know, the longer delays for U.S. ports and 
delays in shipping products across State boundaries and so 
forth and so on, and I think those all build up into 
inefficiency that our customers have to pay for and that other 
countries in the world----
    Mr. Lipinski. And what does that mean for job creation?
    Mr. Levenick. Well, I think, you know, the more effective 
we are at moving goods and being an effective and competitive 
exporter, the better we are going to do as a company; that is a 
proxy for U.S. manufacturers who export, import. And, you know, 
you are going to be a much more effective company, you are 
going to grow, create jobs.
    I mean, if you look at--many of you have traveled to China 
and you have probably witnessed what is gone on there. China is 
an interesting example. They have some advantages, clearly. You 
know, they started essentially with a clean sheet of paper and 
so they are able to build an infrastructure network much like 
what we are describing, an integrated infrastructure network, 
which is, frankly, becoming the standard in the world. They 
spend 9 percent of GDP. They are the second-largest economy on 
earth; they spend 9 percent of GDP on infrastructure. The 
United States, 1.4 percent; Canada, 4 percent. Europe, for 
example, along the lines of what I am describing, they have 
created the TEN-T program, this Trans-European Transportation 
Network, solely focused on creating an integrated network to 
make their economy much more efficient in the global 
marketplace. That is the kind of leadership we need here.
    Mr. Lipinski. Thank you. And I--efficiency means--
efficiency for American businesses mean more American jobs. 
Other countries are stepping out in front of us, becoming more 
efficient; that means more jobs over there than here.
    In the brief time I have left, Mr. Hanley, you know that I 
formed a congressional caucus on public transportation earlier 
this year. I thank you for what you have done at the local 
level. And we need to continue to do more so people understand 
the importance of public transportation, not just to those who 
take that transportation, but to those who are on the roads who 
don't have to deal, then, with all the others who are on public 
transportation being on the roads. But my time is up, so, 
unfortunately, I won't have an opportunity to have you expand 
on that.
    So I yield back. Thank you.
    Mr. Shuster. I thank the gentleman.
    And with that, Mr. Gibbs is recognized for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman.
    And thank you for coming before us today, and I am--there 
are lots of us here who feel a long-term highway surface 
transportation bill is a very good thing, and it provides 
certainty, like you said.
    I want to talk a little bit about--to Mr. Levenick from 
Caterpillar. In your testimony, you talk about the amount of 
exports and imports that Caterpillar does through the foreign 
ports in Canada in particular. In your testimony, you talk 
about outdated manual processes, communications, lack of 
integration and automation. Well, first, before I get to that, 
I want to say, in our omnibus bill, the appropriations bill we 
are doing tomorrow, we are getting the Harbor Maintenance Trust 
Fund appropriation, over a billion dollars, so we are on the 
right track there. And as the chairman of the subcommittee that 
worked on WRRDA, that is something we have been fighting to do. 
I always like to say, doesn't anybody understand the word to 
mean, what a trust fund is?
    But I want to talk a little bit, because I have been to 
some of these ports and, you know, we talk about the depth of 
the ports and the need for dredging, but you talk also in your 
testimony about the lack of integration, automation and the 
communications process. Can you just kind of expound a little 
bit on what is going on in those other ports? And then I guess 
the second part of that, too, is we get the dredging done, 
which we have been fighting hard to get done, do we also have 
just a plain, like, at L.A., Long Beach and some other ports, a 
capacity problem is an issue? Is there some other ports could 
pick up some of that? Is that part of the problem, too, or is 
it some of these other problems you mentioned?
    Mr. Levenick. Yeah, I think it is a little of both. And 
don't take from my comments about the ports it is simply the 
Port of Norfolk can't unload ships fast enough. You know, there 
are a variety of issues around all of these, but I think the 
issue is, is that our modes aren't as alined as they are in 
other countries. So if you have a tremendous world-class port 
and the highway infrastructure surrounding it, which provides 
access to the Nation's network, isn't up to standard, you 
haven't gained anything.
    Mr. Gibbs. OK.
    Mr. Levenick. This is the same argument with the States 
doing their own infrastructure development. While it is 
admirable that they are taking the initiative to do this, if we 
wind up with a patchwork of 50 different States, you haven't 
created a national network that is very efficient. Other 
countries are doing that much better. I mentioned the TEN-T 
issue in Europe. China certainly has done that with a clean 
sheet of paper; Japan is very good at it, and even Canada has 
done a good job of it. So it is a series of things regarding 
alignment of these modes, the information systems necessary to 
communicate effectively between the modes, and a variety of 
things like that that really make it not optimum, and we all 
pay a price for that; we don't see it, but we do, and we are 
losing global competitiveness as a result.
    Mr. Gibbs. OK. And I just want to turn to Mr. Reed with 
your Savannah port and Atlanta being, I don't know how many 
miles it is in from the port, but it is, you now, definitely 
landlocked, and you talked about what you are trying do to 
improve that, what you just said about the, you know, the 
intermodal. Can you comment on that, what you are seeing in 
regards to Savannah and Atlanta?
    Mr. Reed. Yes, Congressman. Savannah is about a 2\1/2\-hour 
drive from Atlanta, but Atlanta has the highway network that 
then gets the goods throughout the Southeast, so it is that 
kind of partnership. About 100,000 jobs in the metropolitan 
region are supported by the Port of Savannah. It is the fastest 
growing port on the eastern seaboard, but it needs to be 
deepened immediately to 47 feet. This committee has been 
helpful with that. But I recently traveled to Panama with Vice 
President Biden, and President Martinelli talked about global 
exports and said that every port that is going to be a player 
in the global economy needs to be at 50 feet, so that is where 
the United States needs to be, and that exports around the 
world over a 30-year period of time, as you know well, will 
increase by about 80 percent, and then when you add to that the 
issue of the size of the ships.
    So we did all of the work that Caterpillar's been a part of 
to get the Panama Canal so that it could handle a ship with 
12,000 or 13,000 BTUs, and now you have ships that are being 
manufactured that are going to handle 18,000 BTUs, and so we 
have to begin. And when we have a 6-year runway, I think we 
have a better opportunity to take all of this in and get ready 
for it.
    Mr. Gibbs. I am just about out of time, but I just want to 
make the comment, I think you are making the comment how 
important it is to connect these systems. I always think, you 
know, all of our transportation systems, you have to look at 
the whole system and not just one part. And I would also--I am 
out of time, but I would also just say we have got a good bill 
out of WRRDA out of the House, and it is not completely there, 
but we are getting there, but just tell all your members, all 
your people you work with just keep the pressure on both the 
House and the Senate to get it done. Thanks.
    Mr. Shuster. Mr. Gibbs, we are working on it.
    And with that, Mr. Carson's recognized for 5 minutes.
    Mr. Carson. Thank you, Mr. Chairman. I believe that States 
like Indiana have demonstrated that there is a role for the 
private sector in building and expanding our transportation 
infrastructure. Going forward, what do you all see as effective 
plans for, or paths for that matter, for the private sector to 
help build out transportation systems? What should we consider? 
Is there a menu of alternatives that you may have in mind?
    Mr. Reed. Well, what we look to do is to have local 
leverage that then is paired with Federal commitments. So, in 
the two most recent examples we have had, one was our TIGER 
bill. We have about 42 million guests. We leveraged double what 
the Federal Government put in, so we think that that represents 
a good investment for you all. We are also going to be open to 
public-private partnerships, but we will allow our private 
sector--our public sector employees to compete. But in the 
United States, public-private partnerships are going to have to 
be a part of the long-term solution, because you have so much 
wealth that is prepared to invest in infrastructure around the 
world----
    Mr. Carson. Absolutely.
    Mr. Reed [continuing]. But what we are not going to do is 
to let a three-piece solution crowd out access and 
opportunities to traditional labor, so everybody is going to be 
able to come to the table and show that you can compete.
    The next step for us in Atlanta is going to be a light rail 
system for the Atlanta BeltLine, which people in Atlanta are 
wildly supportive of. So one of the opportunities to fund that 
would be a referenda, because I don't believe in simply 
imposing taxes on folks based upon my own notions of what I 
think should be done.
    But the bottom line is alternatives, alternatives, 
alternatives that have been vetted and proved effective, and 
then let the local electeds make the decision and suffer the 
consequences, good or bad.
    Mr. Carson. Right. That is good.
    Mr. Hanley. Did you want a reaction from me?
    Mr. Carson. Yes.
    Mr. Hanley. Yeah. My union has had the great advantage of 
122 years of vetting private companies, and we--and most of the 
contracts we have at this point are with private companies, not 
with public agencies. And we can tell you unequivocally that 
private companies collapsed throughout the United States; it is 
what led to the original bill in 1964 50 years ago to bring 
mass transit back. And so long as we seek to improve transit by 
injecting the importance of a profit motive for private 
companies, we will fail.
    Government can effectively run transit. Government does 
effectively run transit. And frankly, trying to reinvent, you 
know, the 1960s, when transit collapsed in America, we think is 
a critical mistake.
    Mr. Carson. OK.
    Mr. Levenick. You know, first of all, I would agree. I 
think Indiana has done some creative things, and I think they 
can be kind of a poster child for some of the options which 
might be available, but in the end, from my point of view and 
Caterpillar's point of view, whatever gets us to a multiyear, 
sustainable integrated network is what we need. And I think you 
are probably likely going to need all of the above. All the 
private partnerships have their role, referendums have their 
role, user fees, user taxes, I think all of this is going to 
form, you know, the potential here to find the funding we need 
to get this done, but the important thing here is to understand 
that this really is about the economic future of the United 
States. I mean, this is not just some short-term thing. This 
really is about how we compete in the global economy and the 
standard of living that we are striving to achieve. And, you 
know, hopefully, the comments that we have made help put that 
in perspective for you.
    Mr. Carson. OK. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Shuster. Thank you.
    With that, Mr. Webster is recognized for 5 minutes.
    Mr. Webster. Thank you, Mr. Chairman, and thank you for 
doing this, getting started early on the reauthorization. I 
think this probably could be one of the most important--
probably the most important bill that passes this last half of 
the--of our--of this 2-year Congress.
    I have a question for the mayor. I am intrigued by a mega 
city inside somewhat of a rural State.
    Mr. Reed. Yes.
    Mr. Webster. And I am wondering, how do you bring about 
influence in that there is one step between you and the Federal 
Government through the DOT and through the MPO process? How do 
you work that out?
    Mr. Reed. I work it out by partnering with my Republican 
Governor, who is a--Republican, but we understand that there 
are some things that we have got to work together on, and we 
both occasionally get in trouble. I supported his application 
for a TIFIA loan for $270 million and caught some flack from 
folks in my party for supporting a Republican. He supported me 
on a transportation referenda, and he caught some flack, but I 
tell you what, unemployment since we both took office is down 
from 10.2 to 7.0, and we will put the jobs that we have created 
up against all of the people who criticized him for working 
with me and for me to work with him.
    So, you know, I understand that he is Batman, and I am 
Robin, but I do believe that mayors have to have a voice. I 
don't have it confused. That is why I wanted to share that with 
you, because the bottom line is, is that, you know, folks in 
cities will help to fund things that folks in rural areas might 
not want to be a part of, but at least give folks that 
flexibility, because it does allow the Federal dollar to come 
forward. And, you know, I think that that has been the key in 
Georgia for us.
    We work together on the things that we agree on, and we 
don't on the things that we don't agree on, and so that is why 
I think that we have had the kind of wins, speaking of 
Caterpillar, the deepening of the Port of Savannah and others 
that we have been having. So that is what I think. And I am 
sure I will get in trouble for saying that during my testimony.
    Mr. Webster. I hope you don't. I would ask you this, then, 
we just finished a freight panel which did a study around the 
country about how we might be able to enhance that through--and 
a lot of the discussion was about how we could somewhat 
regionalize things, certainly roads and railroads and highways 
and other things, and most of the people that come in on--to 
your--to your airport come from somewhere else----
    Mr. Reed. You are right.
    Mr. Webster [continuing]. Sometimes out of your State, and 
none of those stop at your city line nor do they stop at the 
Georgia State line. How do you--do you have any suggestions for 
us on how we can, without overburdening you with some sort of 
Federal--Federal heavy hand, help you in becoming or 
maintaining a regional picture that goes beyond your State or 
city boundary?
    Mr. Reed. Yeah. I think that you can help us by identifying 
Republicans and Democrats that have addressed regional efforts 
and partnerships successfully. There are not that many of them, 
but what we like to have in politics is examples, so--and I 
think that Governor Deal and my relationship has been talked 
about--not across the country--because we are kind of unusual, 
but to the extent that you have bipartisan solutions on 
regional issues and you hold those up as examples and reward 
folks for engaging in that behavior, I think that you help 
America.
    The State of Georgia got turned down for TIFIA four times. 
When the Governor and I both supported the application, we got 
a $270 million grant. And I think that that is--I remember when 
we walked in Ray LaHood's office, he didn't understand why we 
were there together. What is this mayor of Atlanta and this 
Governor of Georgia, who had been a Member of Congress for 20 
years, walk in to his office for? When we have examples like 
that, I think that committees like yours, with all of your 
influence, should hold them up and look at what we worked on 
and what we got done, and I think the country can learn from 
that, because, you know, I served in the legislature a long 
time. When folks come to see you, if they are really smart, 
when they start opening their mouths, they make sure that they 
don't tell you anything that is going to get you beat. I know 
that is how--I used to--when folks used to, like, don't come in 
here with something that is going to get me beat. So you have 
got to be able to tell me about examples where other people 
have done this and lived to tell the tale, and I think that 
that helps the country, and that is what you all did on WRRDA, 
and I think it is what you all can do on this surface 
transportation bill. This is the biggest opportunity to create 
well-paying jobs in the tradition of Eisenhower that we are 
going to have around here in the next 24 months.
    Mr. Webster. Thank you very much.
    Mr. Shuster. Thank you for that insight, Mr. Mayor.
    And with that, Ms. Hahn is recognized for 5 minutes.
    Ms. Hahn. Thank you, Mr. Chairman. I also recently served 
on this terrific panel on 21st-century freight transportation. 
We were tasked with coming up with recommendations for a 
national freight policy in this--in this country, and we 
traveled across the country, everybody came out to L.A., Long 
Beach, to look at those ports and understand what impact those 
ports have on our country.
    One of the recommendations that I helped craft was a 
recommendation that would have required our DOT Secretary to 
identify corridor-based solutions to freight mobility. I 
represent the Port of Los Angeles, and I understand what we are 
talking about when we talk about the last mile. And I have been 
told that cargo gets diverted, not because of any fees or 
environmental regulations in our ports, because it--but it is 
because of land side congestion. So I was disappointed to see 
that DOT failed to include last mile connector roads, which 
connect our ports to major highways, in their recently released 
MAP designating the primary freight network. I think that is a 
big oversight.
    And nobody understands, you know, the congestion or 
dredging as much as I do. I have traveled to the Panama Canal. 
I understand what that is going to mean to our U.S. ports, but 
I also know that--you know, they call me Ms. Harbor Maintenance 
Tax around here, because I have been on this issue since I came 
to Congress 2\1/2\ years ago. We have $9 billion in surplus in 
our Harbor Maintenance Tax that we are not spending for the 
purpose for which it was collected, which is to invest in the 
maintenance and the dredging of our Nation's ports. The head of 
Army Corps told me that if we could release all of that money, 
they could have our ports dredged to 53, 54 feet within 5 
years. That would create jobs, and that would keep us globally 
competitive.
    But I will say, Mr. Levenick, it was very disturbing, very 
disturbing for me to read your testimony and to hear your 
testimony. And I understand, again, we need to do a much better 
job of dredging our ports, being globally competitive, working 
on that last mile, but, you know, I feel like you are part of 
the problem and not part of the solution. You are shipping 40 
percent of your product through Canadian ports, which means 
basically you are avoiding the Harbor Maintenance Tax. So you 
are avoiding paying that, and that is the very money that we 
use to maintain our ports and harbors. And we are looking to 
actually expand the use of the Harbor Maintenance Tax to 
include possibly land side improvements that relate to our 
ports.
    So you are failing to pay it, you are avoiding it, and then 
you are using our infrastructure, and you are complaining that 
our ports aren't dredged and our infrastructure's not 
maintained, so--and by the way, I just want to go on record 
saying, I know, and I am glad you said it wasn't one thing that 
caused you to abandon our U.S. ports, but, you know, automation 
is not going to be the answer to making us, you know, more 
efficient. I mean, we are--we are--you know, we--if there is 
one thing we got to fight for, it is good American jobs, and 
there are good American jobs at our ports. And automation may 
be coming and maybe it is a little more efficient, bu it is not 
the answer. And with automation comes the disruption of good 
American jobs, and I am not sure that is what we need to be 
focusing on.
    I think there are other ways to be more efficient and move 
those goods, but we have got to talk seriously about our roads, 
our infrastructure, our bridges and certainly that last mile.
    So what other ideas do you have? And by the way, I am 
disappointed that you are a board member of the United States 
Chamber of Commerce, and you are abandoning our U.S. ports and 
shipping your products through Canada. You know, I just don't 
think that is a good message. So what other ideas do we have 
collectively, and I would like to hear you, to improve that 
last mile, to improve the congestion and to make this seamless 
transportation network that does include more on dock rail, you 
know, better near dock facilities and moving this cargo more 
efficiently?
    Mr. Levenick. Well, first of all, I think what has drove us 
to that decision is not some arbitrary decision that we are 
abandoning the United States. I mean, the whole reason I am 
here is we are one of the largest exporters in the United 
States, and we would love nothing better than--and we find it, 
frankly, crazy that we can't export efficiently on a global 
basis from our U.S. ports, and the only alternative to be 
globally competitive--our customers around the world don't care 
about U.S. jobs. They care about a cost-effective delivery of 
their product on time and in a competitive cost. And so we are 
forced as a global competitor, like anybody in the global 
economy, to play by those rules.
    The suggestions I think we have laid out, and I am glad to 
hear that you understand that it is not--it is not one 
solution; it is an integrated network. That is what the rest of 
the world's going. That is where the rest of the world's going. 
One solution on, you know, a weight limit addressment or just 
purely highway funding isn't necessarily the answer. It is got 
to be--this is where I think the Federal Government really 
plays a role, and I compliment the study that was done for--by 
this committee over the last 9 months. So I think that is a 
great blueprint for where this country needs to go, but 
ultimately, it is about an integrated network, you know, led by 
I think the philosophy driven by this committee and the Federal 
Government with flexibility for regions and for States that 
will get us back to where we need to be, but by no means are we 
abandoning U.S. Ports. I mean, the ports that we do use today, 
of course we are paying taxes. And we would like to see those 
taxes spent against--or those fees spent against the 
improvements you are talking about. But we would love nothing 
better than to be able to ship all of our goods--it only makes 
sense. The ports are closer to our places of manufacturing in 
the United States than Canadian ports. We are only doing that 
because we are driven by the global economics.
    Ms. Hahn. Well, and--but you are. I mean, you are--
certainly you talked about abandoning L.A., Long Beach. And, 
you know, our local economy in Los Angeles is really tied to 
the economy of Long Beach and L.A. When cargo is down in those 
ports, you know, small businesses suffer in Los Angeles.
    Thank you.
    Mr. Shuster. Thank the gentlelady.
    With that--is Mr. Davis here? Oh, there he is. Mr. Davis is 
recognized for 5 minutes.
    Mr. Davis. Well, thank you, Mr. Chairman. I appreciate the 
opportunity.
    Mr. Shuster. Sorry. I forgot you were sitting on the other 
side of the room.
    Mr. Davis. Yes. Thank you, Mr. Chairman. Right in front of 
Ms. Harbor Maintenance Trust----
    Ms. Hahn. Thank you.
    Mr. Davis. Thank you very much, Mr. Chairman, in all 
seriousness, and thank you to the panel. This committee--and 
what has been great for a new freshman like me to hear is the 
talk about the cooperation and bipartisanship, especially when 
it comes to transportation issues. This committee recently 
passed a bill, passed the WRRDA bill out of here unanimously. 
We don't hear about that in the press. We don't hear about 
bipartisanship and cooperation. So whether it is Batman and 
Robin, Mr. Mayor, or you and the Governor, you know, it is 
great to hear where you are making successes on a bipartisan 
basis when you talk about infrastructure and implementing it in 
a very cost-effective way.
    And I would also like to congratulate the city of Atlanta 
on three Hall of Famers this year.
    Mr. Reed. Yeah. Pretty good.
    Mr. Davis. Yeah. Congratulations. And thank you for what 
you do for that great city.
    When you talk about cooperation, you talk about 
infrastructure. We have examples of success all throughout this 
country. Next month, we are going to open the Stan Musial 
Veteran's Memorial Bridge across the Mississippi River from 
Illinois into Missouri, and that was a project that had been 
long planned. And it took bipartisan cooperation from--they are 
not Batman and Robin, but two that I would like to call out are 
former Member Jerry Costello from the State of Illinois and 
also my colleague and friend John Shimkus for their bipartisan 
cooperation, but it took so many others to work together to 
make that project a reality. And we on this committee have the 
opportunity to do that together. I am glad the chairman has 
begun the dialogue and opened up the process of us being able 
to do that. And all of you today have provided me a great 
knowledge and a great optimism on where we can go. And I do 
have a couple of specific questions.
    Mr. Levenick, as you know, it has been a difficult year in 
Decatur, Illinois. However, I was really excited to here that 
Cat's application for a $694 million loan was recently 
approved, and that is going to hopefully provide more mining 
equipment to a new iron ore mine in Australia. I am hoping that 
means an increase in workload for your Decatur plant and more 
jobs for my constituents.
    And in your opinion, though, what is the most important 
thing this committee can do to help Cat, ADM and others in the 
Decatur area bring more jobs to central Illinois?
    Mr. Levenick. Well, I would piggyback a little bit on what 
Mayor Reed said before. I think--you know, we located a 
facility in Athens, Georgia, essentially to take advantage of 
what we believe is going to be world-class infrastructure. We 
moved goods back to the point of where they are consumed from 
overseas. I think that was a very good move for us and for the 
country. And simply stated, I think what Cat and any other 
manufacturer or business like us that is a global exporter 
needs is a sufficient network of transportation. Make us 
globally competitive. That is going to create more jobs in the 
United States. It is going to make us more successful as a 
country, raise our standards of living; integrated multiyear, 
multimodal program with certainty is going to give us the 
competitive advantage we need to be globally competitive.
    Mr. Davis. Well, thank you very much for that. And I know 
in your testimony and also in your responses today, you talked 
about the investments other countries are making to 
transportation and infrastructure systems, and also how an 
organization and a company like Caterpillar would make 
decisions. And you have let us know how much of a factor 
efficiency and reliability of the surrounding infrastructure is 
when you make those decisions.
    And today's marketplace is global. We understand that. And 
I respect the fact that you have to make decisions on a global 
basis. However, within the State of Illinois, in particular, in 
regards to the many facilities that you have in that great 
State, what would you say is the number one transportation 
impediment to growth and expansion in the State of Illinois 
versus in Athens, Georgia?
    Mr. Levenick. Probably the--it is different in every State, 
obviously, but I think probably the challenge in Illinois would 
be the highway system. It has been underinvested in for a 
number of years, and it needs to be upgraded, repaired, 
replaced. It is not a--like other States, it is--Chicago is a 
very big metropolitan area, but the rest of the State where our 
facilities are located is, you know, relatively resident or 
smaller communities, Peoria, Decatur, Aurora, so the 
infrastructure that exists there is just outdated and needs to 
be upgraded.
    Mr. Davis. Well, thank you very much for your testimony. I 
had some more questions, but since the chairman didn't 
recognize I was here, I ran out of time.
    I yield back.
    Mr. Shuster. Well, I am sorry. I really apologize I didn't 
recognize the gentleman from----
    Mr. Davis. Does that mean I get more time?
    Mr. Shuster [continuing]. Illinois. No, but I have to point 
out to the committee that the Stan Musial Bridge is actually 
the Stan Musial Bridge II, because the Stan Musial Bridge is in 
my district. It runs across from Donora, where he was born, to 
Monessen, Pennsylvania. So I just had to point that out to the 
gentleman from----
    Mr. Davis. Little minute details.
    Mr. Shuster. And with that, I recognize Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    And I, too, want to thank you and Ranking Member Rahall for 
working on a bipartisan basis. Now all we need to do is have 
the witnesses understand that we need your help in convincing 
the other Members of Congress to vote for a 6-year bill. We 
have been wanting it. We have been needing it. And you know 
better than anybody where that need is. And if we don't work 
together and convince some of the folks that will help us put 
that 6-year bill forward, that we won't be as successful, so I 
am asking for your help to be able to convince some of the 
Members who are a little reticent on doing a 6-year bill versus 
a 2-year bill.
    And you talk about global competitiveness. And I am from 
L.A. The ports that Ms. Hahn talks about run through my 
district, the freight, and the great separation, the funding 
isn't there to be able to increase the number to do more on-
time delivery. The railroads are not putting as much money as 
we would hope they would. And somehow we need to be able to 
change the mentality of where the job development is, what it 
is going to mean to the economy and how we can all partner and 
be better, how would I say, served?
    And, Mr. Reed, I am a former mayor of a small city----
    Mr. Reed. I know.
    Mrs. Napolitano [continuing]. And it is--that is where the 
rubber hits the road. That is where people will come to you and 
tell you what their needs are. And you are right. We need to 
have a lot more of the ability for the local communities to 
make up their mind what their needs are rather than to have 
somebody tell them, but what about an infrastructure bank to be 
able to help those communities that are note able to finance 
their own projects being able to get some help from 
transportation funding? And that is some of the things that I--
that I have very, very key in my mind.
    And you talk about infrastructure development. South 
America is going great guns to be able to take some of those 
freight lines away from us, or freight corridors. The 
infrastructure that is being spent in many of the countries far 
outweighs, as you pointed out, what we are doing in this 
country.
    To some of the areas, and this goes to Mr. Reed, is--
Honorable Reed, is the local hire preference. It used to be 
years ago when the law was first proposed and passed, it was 80 
percent Federal funded to 20 percent, and it is now reversed. 
So why are we not allowing the communities to be able to do 
local hiring, because they know where their pockets of poverty 
are that can benefit from job development and job training, and 
somehow we have not really reversed that to be able to allow 
local communities to do a lot more of their own economic 
development. That is one area.
    And the other area goes, of course, to Mr. Hanley is we 
didn't talk about safety, transit operator safety, whether it 
is railroad, bus drivers. I think we have more bus drivers, as 
you pointed out, suffering from fatigue and causing accidents. 
You have more accidents with buses than you do with airplanes. 
Now, how do we address those, and how do we begin to understand 
that all of it comes together? You have to have the funding, 
you have to have the community support, and you have to be able 
to have driver safety or employee safety, because not only is 
it the person who is doing the driving, but it is also the 
people he has under his charge, whether it is a bus or a train 
or a plane. Anybody.
    Mr. Reed. Well, Congresswoman, I would start by saying I 
fully support your feelings regarding an infrastructure bank, 
because of the reversal in funding that you have pointed out. 
So when our MARTA system--we have the ninth largest system in 
America. It does not receive State funding and runs in a pretty 
strong fashion. When it came about, it was 80 percent Federal, 
20 percent from the State and local. That has changed, which is 
why--and I was aware that you had been a mayor, which is why I 
think mayors have to have a bigger say, because the bottom line 
is 70 percent of the GDP in America is in cities. So I would 
fully support your efforts around an infrastructure bank. And I 
advocated in my own remarks that mayors need to have a seat at 
the table to have their own ideas baked in and to use the tools 
that we use.
    So you referenced the local hire initiative. All of that is 
impossible under the current framework that is being sent to 
us, because we are not even at the table. And so getting folks 
well-paying jobs is being slowed down at the Federal and State 
level. And so I was just advocating one that I think that the 
infrastructure bank is a good solution, that once it works its 
way through and comes out in a bipartisan fashion, I think it 
is going to be part of the future because it will extend the 
Federal Government's resources at a time when we need to do 
more with less.
    Mr. Hanley. In our formal written testimony, Congresswoman, 
we addressed all three of those areas, one being the fact that 
there is a massive wave of assaults on transit workers, 
particularly bus drivers throughout the U.S. and Canada right 
now. We believe it is connected to the fact that they are in a 
bad economy, that the service has been cut, passengers are 
angry and the fares have gone up, but these are very critical 
assaults that are going on. People are being beaten within an 
inch of their life.
    The other thing is that in public transit, one of the dirty 
little secrets that nobody ever wants to talk about is that 
transit systems do not provide bathroom breaks and do not 
provide access to bathrooms, and as a consequence, and this is 
a safety and health issue, drivers all over the country are 
driving around developing diseases, not being able to use 
bathrooms, limiting their intake of water, and this is 
something that we would like to address with Congress during 
this reauthorization.
    Also, in the over-the-road industry, which you just 
mentioned, the Greyhound-type buses, not just Greyhound, 
because of deregulation, we have had a huge increase in safety 
hazards and deaths. People are dying all over the country. More 
people die in bus accidents now than in plane crashes, and that 
is because of the fact that our Government has abandoned 
regulation.
    Mrs. Napolitano. Thank you.
    Thank you, Mr. Chair, for your indulgence.
    Mr. Shuster. Thank the gentlelady.
    And with that, I recognize Mr. Barletta for 5 minutes.
    Mr. Barletta. Thank you, Mr. Chairman.
    I would like to thank the chair also for putting this panel 
together.
    I enjoyed hearing from all of you. I, too, was a mayor; I 
was a mayor for 11 years, so I agree with the importance of 
having mayors at the table in the decision process. There is 
not a tougher job in politics than being a mayor, as you know. 
And I also understand the importance of public transit and what 
it means to a community. My family was also in the road 
construction business, so I have been on a Cat 956 front-end 
loader. I also understand that in that industry, contractors 
are not going to buy a $500,000 piece of equipment on a 2-year 
bill; that if we want people to make investments, they need to 
know there is work for 5, 6, 7 years. There is also nothing 
better for the economy than a long-term bill, because when 
there is a lot of construction work, construction workers make 
good money. When construction workers make good money, they 
take their families out to eat. They spend it in the local 
economy, and that money stays right in our communities.
    I also believe that public-private partnerships are very 
important in the fact that we are able to stretch our dollars 
and bring the private money in so that there are more projects. 
When there are more projects, more people will be working, and 
maybe we wouldn't be talking about extending unemployment 
compensation if there was more work for construction workers so 
that they know that they had a job.
    Mayor Reed, your northwest corridor project is very 
interesting. I would like if you could explain a little bit of 
that and what the TIFIA program means to that project.
    Mr. Reed. Well, what it means is we have a choked I-75 
north corridor, which is northwest above the city of Atlanta. 
And our metro, now, Congressman, is 6.1 million, so we have got 
the ninth largest metro in the U.S. The problem is, is that we 
grew that fast probably 20 years ahead of where most folks 
thought we would get there, and so that corridor is choked and 
congested.
    The State of Georgia enjoys one of the highest bond ratings 
in the United States of America. We are one of seven or eight 
States that have Triple A ratings by all of the major rating 
agencies, and we needed the Government's help. And so we had 
applied before. We applied most recently, received a grant 
under Secretary LaHood, and then that grant was--is being used 
in that corridor. And I think it just represents one of the 
best solutions, because you all are not encumbering the Federal 
Treasury with debt. We will pay it back. We are capable of 
paying it back, so we think that that should be held up as a 
tool and talked about and talked about and talked about.
    And I also happen to believe that once you all draft a 6-
year bill, mayors across America got to get out and talk about 
it and help you explain, because the bottom line is I certainly 
agree with my colleague from Caterpillar, is that it is really 
about competitiveness, but folks aside from Members of Congress 
need to get out and say it. This is about the America that we 
want to have, and so the bottom line is if we don't deal with 
our arterials and our traffic and the deepening of our ports 
and our roadways, you know, we are giving away where everybody 
says the growth is, which is in our international routes and 
access and in the global economy. So that is my straight 
answer.
    And so much freight travels on that 75 corridor to the rest 
of the United States, certainly in the Southeast in the United 
States. Atlanta and our metro is the hub and is the most 
dynamic economy in the Southeast. Our metro economy is larger 
than that of 30 States. So this is real money, real job 
creation. It is about a $298 billion metro economy.
    Mr. Shuster. Thank the gentleman.
    With that, Mr. DeFazio is recognized.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Levenick, earlier Governor Fallin talked about the fact 
States have stepped up and said that that can't be a rationale 
for the Federal Government to pull back from its proper share. 
There is kind of a--well, there are some right wing think tanks 
around here who are pushing very hard on the idea that we 
should have what is called devolution; we should devolve the 
duties of financing, coordinating and constructing a system, a 
national transportation system, to the States. And when I say 
to them, well, how is that going to work? For instance, I guess 
there was some earlier discussion about you using harbors in 
Canada because it takes longer through L.A. So how does that 
work for L.A.? So they provide their freighters to go all over 
the United States, but the Port of L.A. and California should 
pay for the Port of L.A. and the Federal Government shouldn't? 
I mean, what do you think about this theory that we should 
devolve back to the States the duties for a national 
transportation system?
    Mr. Levenick. Well, I think, first of all, we don't support 
that.
    Mr. DeFazio. Good.
    Mr. Levenick. That is the simple answer.
    Mr. DeFazio. That is good.
    Mr. Levenick. I think the chairman said it in his opening 
remarks, the Federal Government has always had a constitutional 
role that creating a national system of transportation that 
supports the common good. We couldn't agree with that more. We 
need an efficient network. And you have seen States take the 
initiative, and we commend it, because they are acting in, I 
guess, their own self interest to pass gas tax or find funding 
mechanisms to drive some investment in infrastructure, because 
they recognize the importance, but that can't really be the 
answer. If we wind up with a patchwork of 50 different 
solutions, you don't have a network, and that is some of the 
heartburn we see today with all the different regulations and 
the inefficiency in the system is driven by, frankly, a lot of 
variation in our network that has likely evolved over time 
because some States didn't keep up with--you know, with the 
development of world-class transportation that others did, and 
we wind up with this situation.
    So I don't think devolving the responsibility for this to 
the States is an effective solution if we are going to be 
internationally competitive.
    Mr. DeFazio. And then just--I recently visited an equipment 
manufacturer in my district, Johnson Crushers, they make rock 
crushers, and I think you may compete in some areas, but they 
made a point and they showed me graphics that whenever we are 
uncertain about the future of the Highway Trust Fund or we are 
inadequately investing, domestic orders drop off dramatically 
because the contractors don't see the work in the future. And 
one of the States already--it might have been Oklahoma, I can't 
remember--has said we are pulling back on our investments, 
because we don't know if the Federal cost share is going to be 
there, because the trust fund goes to zero next--next fiscal 
year.
    Have you seen the same impact on Caterpillar's heavy 
equipment domestic sales that when there is uncertainty about 
the future or we are not investing adequately, that your sales 
suffer?
    Mr. Levenick. Yeah, we have seen that. And we certainly 
hear it from our customers, who are very vocal about it, and 
our dealers who, you know, explain very clearly that, you know, 
without a long-term solution, we won't step up and make the 
long-term commitments on investments that are necessary.
    One of the phenomenons that I think supports that also is 
the dramatic expansion of the rental industry for heavy 
equipment. People are choosing more to rent rather than buy as 
a result of this or hold on to equipment longer than they 
otherwise would. So there is a whole series of things that play 
out, and it varies State by State, but that is----
    Mr. DeFazio. And that, obviously, has a major job impact 
here in the U.S.
    Mr. Levenick. Absolutely.
    Mr. DeFazio. Thank you.
    Mr. Hanley, quickly. One point I was surprised you didn't 
make in responding to Mr. Hanna was the fact that there--can't 
we say that there is a tremendous net benefit to highway users, 
particularly in urban areas, from having diverted people from 
being in single-occupancy vehicles, adding more to congestion 
and delaying people more? Would you--you want to address that 
briefly?
    Mr. Hanley. Well, I couldn't have said that better. You 
know, again, we found out some of that--some of the effects of 
congestion in Fort Wayne, New Jersey. You know, the fact is 
that if transit riders stopped riding transit tomorrow, this 
country would come to a standstill, and the same impact will 
occur if we don't plan ahead for the next two appropriation--I 
am sorry, the next two authorization periods, because the 
population in our cities is going to explode: 80 percent of the 
people in this country live in cities, and the population of 
many of those cities is going to grow by 30, 40, 50 percent. So 
it is--there is a much longer answer, obviously, to what the 
Congressman asked me, but the fact of the matter is that 
transit riders pay more than their fair share for their 
systems.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you.
    And Mr. Bucshon is recognized for 5 minutes.
    Dr. Bucshon. Thank you, Mr. Chairman.
    Thank you for the time.
    Thank you, panel, for being here. It is very much 
appreciated.
    I wanted to focus on Mr. Hanley. Following up with Mr. 
DeFazio and Mr. Hanna just talked about. And I think the mayor 
said this, well, that everything should be on the table. I 
mean, if we are going to fund infrastructure, then everything 
should be on the table. And as you are aware, in MAP-21, as it 
passed out of committee, transit was separate. It was separated 
out from the gas tax. And we are not going to get into that 
debate today.
    But the point is, is that people on the committee here are 
struggling to find ways to do exactly what you want for your 
workers. Because--exactly what Caterpillar wants, exactly what 
the mayor of Atlanta would like to have. And that is more money 
for infrastructure. I think we can all agree on that. So if we 
are going to have everything on the table--and I know you said 
the people that ride mass transit are paying their fair share. 
And I have lived in Chicago; my son goes to Emery University in 
your great city. And, in fact, I just flew through your airport 
coming here. I love Atlanta.
    But that said, if everything is going to be on the table, 
tell me how you would think that the workers that you represent 
potentially would be harmed by looking at having that support 
on the table as a way to overall fund infrastructure, not 
just--not just mass transit, but as a part of a bigger equation 
to find more money for our whole intermodal system? Why would 
your workers be against something that we might try to find a 
way that transit could support the Federal highway and transit 
program? I am just trying to get my arms around that.
    Mr. Hanley. I am not sure I understand the question.
    Dr. Bucshon. Well, I mean, the gas tax is a user fee.
    Mr. Hanley. Right.
    Dr. Bucshon. Is there a user fee--Federal user fee for mass 
transit?
    Mr. Hanley. No. But----
    Dr. Bucshon. That is the basic question. I am not saying 
there should be. I am just saying if everything is on the 
table, what I am trying to understand is why your workers or 
your industry would be against having that on the table as a 
part of a way to help us find more money. Because we are--my--
our struggle is finding more money for infrastructure.
    I mean, I totally agree last time, you know, we funded a 2-
year bill--it is not long enough--we used other revenue from 
other areas of the Government, because the user fees, our 
revenue is dropping because of inflation and no indexing of the 
gas tax, blah, blah, blah, we all know what the problem is.
    I just can't wrap my hands around the--on the transit side. 
And this is not a partisan issue because we have bipartisan 
people that did not want that separated out--why finding some 
money in that area is something that would hurt the workers 
that you represent. I just don't understand that.
    Mr. Hanley. But you have it. I mean, I think if the goal is 
to say that because people who ride in cars pay gasoline taxes, 
and some of that goes to transit, then therefore there has to 
be some special Federal taxation on transit riders because they 
ride transit--I think that is what you are saying.
    Dr. Bucshon. I am just saying it seems--don't get me wrong, 
I am not for or again--I am just trying to have a conversation 
here about if we are going to have everything on the table. 
There are some people in Congress that think transit should not 
be in this highway bill, should be subject to annual 
appropriations--and I am not saying I am for or against that, 
but that's what passed out of committee last time. So, in our 
discussions, you know, how can--you can help convince us when 
we need more money that we should keep that in there and--and 
everybody else should have their taxes raised like you--you 
pointed out, like the general fund, say just for argument's 
sake, the millionaires--and that is a direct quote from you.
    Mr. Hanley. Billionaires.
    Dr. Bucshon. Millionaires, billionaires, that is the 
talking point. And, by the way, I was disappointed that you 
used the national talking point of the bridge from New Jersey 
to New York in part of this discussion. I thought that was 
inappropriate.
    But the fact of the matter is how can you convince people 
that, OK, we should do that and we should use those general 
funds to pay for transit, which, as Mr. Hanna pointed out, it 
is--in fact, I rode--in Atlanta, my son took me to--drove me to 
one of your train stops on the North Side and rode it 
directly--I love mass transit; I ride it any chance I get. I am 
just trying to get my hands around how you can convince us that 
if everything is on the table, that that that isn't.
    Mr. Hanley. I think we have to walk for a minute through 
history and consider the impacts of the Eisenhower highway 
program on mass transit and on mobility in America. You know, 
prior to that highway program, people got around by using 
trollies, trains, buses. That is how they moved around the 
United States of America in our cities and between our cities. 
And this Government made a choice in the Eisenhower highway 
program to change radically the way Americans lived, to create 
suburbs, to drive people out of cities or to encourage people 
to get out of cities. It was a completely subsidized operation 
by this Federal Government to move Americans from their cities 
out to suburbs. And there came a point in the 1960s where all 
of the transit systems were going broke. The ones that were not 
taken over by the auto industry, the national city bus lines, 
which was a creation that was pursued by the Justice Department 
for ripping up trolley systems all over the country. This is a 
fact, this is what happened. So then what came about is in the 
1960s, mobility in American cities was in collapse. Bus 
companies were going out of business, train companies going out 
of business, until the Federal Government finally had to step 
in. This was really the mirror image of the highway program, 
where the Federal Government had to step in and subsidize 
transit to get it back up and running in order to keep our 
cities moving.
    Now what is happening is the exact opposite phenomenon of 
what happened in the 1950s is occurring, not because of a 
Federal Government program but because young people are saying, 
no, no, I don't want to live in the suburbs, I don't want to 
have a 4-hour commute every day. I want to live where I work. 
And there are other factors obviously involved in that. But 
these are societal changes. And I just don't think we can 
attempt, rationally, to isolate where Federal taxes come from 
for a particular program. I think that is a failed strategy, 
and there are many reasons why but I know I am out of time.
    Dr. Bucshon. OK. Thank you.
    I yield back.
    Mr. Shuster. Only thing, Mr. Hanley, I would say I disagree 
on is the Federal Government does provide dollars for the 
highway system, but it is a user-based system. So if you use 
it, you pay for it, and that is what Mr. Bucshon, Mr. Hanley, 
again, we need to look at everything. And, you know, I am a big 
rider now on the train from Harrisburg to Philadelphia. And the 
State put in $100 million for Amtrak, and they reduced the 
time. And, you know, I have said many times in this committee 
room and many times across this country, every time I get on 
that train and I look at the ticket price and the figure on the 
back of the envelope, I should be paying more for it. Prime 
time, they are not making money. I think they have inched it up 
some. But when I do the back of the envelope, on gas, tolls, 
parking, and then my productivity goes from zero in a car to 
100 percent productive, you know, sometimes I think we are not 
looking at that in transit systems. As we said, there are a lot 
of rich people that are riding--I think Mayor Bloomberg rides 
the transit system.
    Mr. Hanley. Not really.
    Mr. Shuster. OK.
    Mr. Hanley. I have been there.
    Mr. Shuster. I believe you. But I think, you know, we have 
got to be looking at those kinds of things and how we can make 
transit systems--look I don't believe they are ever going to 
pay for themselves, but to get them paying more for themselves 
so that everybody is going to benefit by it. Because your 
argument is right, the logic is clear. People that get on 
trains and transit aren't in their cars. And that would cause 
us a huge, huge congestion explosion if we did that. So we have 
just got to be thinking about different ways. And I think Mr. 
Bucshon is trying to get at that. What do we think about how do 
we get around it? That is the key to it.
    With that, Ms. Edwards is recognized for 5 minutes.
    Ms. Edwards. Thank you, very much, Mr. Chairman, and thank 
you to our witnesses today. You know, I have been so intrigued 
but these conversations about transit riders subsidizing the 
transit for what we put into gas tax with the roads. Because I 
can think of a number of public goods that--public good that we 
get from having transit in place, not the least of which is 
taking so many people off the highways so that our trucks and 
commercial vehicles can travel more safely and more 
efficiently.
    I can think of the public good of improving our air and 
water quality because we are not having all that, you know, 
sort of oil dripping down into our waterways. And we experience 
that in Metropolitan Washington. I can think about the 
contributions to strengthening the quality of life when people 
can get home to their families, get to their jobs on time, and 
take away that stress. So if we are going to begin to quantify 
things, I hope we begin to quantify some of those things when 
it comes to asking whether transit is a net positive or a 
negative.
    And, frankly, sometimes people in my district and my State 
ask me why, when we are such a thriving State in a thriving 
metropolitan region that is contributing a lot to the economy, 
why we are subsidizing roads out in the middle of nowhere? And 
I say, you know what? It is because we are Americans, and we 
make an investment in a national system. And so the folks in 
the rural areas get their roads, and in our metropolitan area, 
we get our transit.
    So I hadn't planned to go there, but this conversation has 
just been so fascinating. I listened earlier as well. And 
thought from the perspective--and I want to ask about this, 
about workers. Because I think about the workers who work for 
Caterpillar and other manufacturing companies who are going to 
be charged with building the equipment that will improve our 
infrastructure. The workers in communities like Atlanta and 
here and this region who build the roads, maintain the highways 
and bridges and maintain and operate our buses, our Metros and 
our commuter rail. And I am no Mayor Bloomberg, but I have been 
known to get on our Metro system and get on our buses and, of 
course, the workers, who ride, drive, and commute.
    And so my question really goes to Mayor Reed and to Mr. 
Hanley asking about wages and benefits and things like transit 
benefits that go to workers so that they get off the roads. And 
whether we are paying prevailing wages so that the jobs we are 
creating actually enable people to take care of themselves and 
their families and build that kind of thriving economy. And I 
wonder if you could comment about the importance of those kind 
of policy initiatives as well when we consider reauthorization.
    Mr. Reed. Well, I would start by saying that the 
reauthorization bill is going to help drive construction, which 
in my community took a 50,000-job hit during the worst of the 
recession. And the city of Atlanta is one of the biggest actors 
in the construction space in the region and the State. So we 
are in the middle of building a $1.2 billion football stadium. 
We have a $6 billion capital program at the airport. We have $2 
billion more to spend in water and sewer----
    Ms. Edwards. You prevailing wage standards that apply to 
that, especially of course when----
    Mr. Reed. We don't have prevailing wage standards that 
apply to that, but we have initiated a mentor program, and we 
do provide benefits to businesses that hire locally. So we 
don't have prevailing wage program. But I will tell you this, I 
have been mayor of Atlanta now for 4 years. And without any 
kind of program, I have raised the salary in the city of 
Atlanta for every single employee to $10 an hour or more. 
Because I made the decision as the leader of my city that 
nobody was going to have a full-time job with my city and be in 
poverty.
    Ms. Edwards. Could I get a comment from Mr. Hanley before 
my time runs out?
    Thank you, Mayor.
    Mr. Hanley. There are many, many hidden subsidies involved. 
There are many hidden subsidies involved in highways and cars. 
And one of the ones Congresswoman Duckworth joined us in 
pointing out and that is the fact that we have this need for 
oil, which creates a need for wars, which creates a need to 
American kids to lose their lives, their limbs, and their 
heads. And that is something that is never factored into this 
public discussion about the importance of public transit. And 
the question was then about wages also?
    Ms. Edwards. Yes, wages.
    Mr. Hanley. Well, the fact--I recently had a meeting with 
about 30 new presidents of locals in our union throughout the 
country and Canada. And one of them got up from Ohio and said 
he has members who work full time and work overtime and qualify 
for food stamps. And that gave me pause. And I said: How many 
presidents in this room can say the same thing? Every one, 
except the Canadians, said that they have workers in their 
union working full time qualifying for food stamps.
    Ms. Edwards. Let me just, very quickly, because my time has 
run out. When we reauthorization surface transportation, do you 
think it is important for us to make sure that we maintain 
strong prevailing wage standards when it comes to spending 
Federal dollars?
    Mr. Hanley. It is absolutely vital.
    Ms. Edwards. Mr. Chairman, if you could, if we could get an 
answer from the panelists here about the idea of tying tax 
rates to construction inflation like we do in Maryland in terms 
of strengthening the Highway Trust Fund. Not raising the gas 
tax, but tying increases to construction inflation. Florida, 
Massachusetts, and Maryland are three States that do that. And 
if we are looking for other revenues to strengthen the Highway 
Trust Fund, I would just be curious, particularly, you know, 
from our friend in Caterpillar, if you would respond to that.
    Mr. Levenick. Well, sure. I think--I think that is a 
legitimate question to ask. Like I said before, I think there 
are going to be multiple ways that we fund this. One of the big 
fallacies with or the big disadvantages with, you know, the 
1993 highway bill was that it was never indexed against 
inflation or fuel efficiency. And I think correcting those gaps 
in whatever we do going forward will be a big step going 
forward.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Shuster. I thank the gentlelady.
    And the gentleman.
    With that, Mr. Meadows is recognized for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each of you for your time. I think I am last up, 
but you are going to get to go home shortly.
    Mayor Reed, I just want to compliment you on your 
bipartisan way, and it has real effect. I live very close to 
Atlanta. I am probably closer to Atlanta than I am Charlotte. 
My other favorite mayor is now Secretary of Transportation.
    Mr. Reed. Good friend of mine.
    Mr. Meadows. I consider him a great man in the spirit of 
what you have shared here today. But in a bipartisan way, you 
have my commitment to work on this.
    I want to thank the chairman for being proactive in working 
on this ahead of time so that we can get truly good policy as 
it comes forth and we address this particular issue.
    Mayor Reed, I would be interested--you serve the Atlanta 
metropolitan area. And yet much of what you have talked about 
here today is looking at transportation from a holistic point 
of view, from the ports, obviously, to the city. How do you 
sell that to your constituents that will make a decision every 
4 years on whether you are going to represent them again?
    Mr. Reed. I think we sell it because my constituents 
understand competitiveness. And they understand that in order 
for me to make sure that they have the kind of opportunities 
that allow us to have the fourth largest concentration of 
Fortune 500 businesses, that we have to have global access and 
global connectivity and that we have got to be competitive 
around the world. And so most people in the Metropolitan 
Atlanta region know someone or related to someone that has a 
job that is tied to one of our major businesses or major 
industries. And so that is how we sell it.
    Mr. Meadows. So putting more of an emphasis just on light 
rail or MARTA or whatever it might be is only one component of 
transportation in terms of those that benefit the constituents 
that you represent.
    Mr. Reed. You are right. And you have to make the 
competitiveness argument. And that is really what carries the 
day for us. That is how you cut through the partisanship.
    Mr. Meadows. Thank you.
    Mr. Hanley, in your testimony, you mentioned a GAO report. 
And in that report, it also made--that same report made 
mentions of really the private sector working on public 
transit. And the benefits. But yet in your testimony, as I have 
listened, I guess, to some of the question and answer, you 
don't believe that the private sector really has a strong role, 
I guess, going back to some of the demise from the 1964--I 
don't want to misquote you, but I think that characterizes your 
testimony.
    So you agree in part with the GAO study but not in 
totality.
    Mr. Hanley. Well, that would be fair. But are you asking a 
question about our views on the private companies and transit 
generally?
    Mr. Meadows. Well, I guess my--how do you pick and choose 
what parts of GAO study you are going to support? You mentioned 
it in your testimony. So you pick the part that you like. And 
the part that you don't like, you kind of throw out, so what 
matrix do you use to qualify what is a good recommendation from 
the GAO and what is a bad recommendation?
    Mr. Hanley. We don't have a matrix. We just layer our 
thoughts and views and our knowledge on what we read in the GAO 
reports. And sometimes they are right, and sometimes they are 
wrong.
    Mr. Meadows. But, I mean, guess, how do you make that 
determination? I mean, for me as a Member here, I am trying to 
figure out, OK, how do I value that? And so does that come from 
a personal bias or where does that come from? How----
    Mr. Hanley. Years of experience.
    Mr. Meadows. OK. Years of experience that the private 
sector is not the best solution is what you are saying.
    Mr. Hanley. I know what happens. I know what happens when 
you inject profit into public transit. I know what happens to 
workers. I gave you the example of a French company run by the 
social security system.
    Mr. Meadows. Right.
    Mr. Hanley. Taking away pensions. The problem in a study 
like what the GAO has is it ignores that. Those facts were not 
brought up. I would be happy to sit down with the GAO, and they 
would come out with a much different study if they talked to 
us.
    Mr. Meadows. No doubt.
    Mr. Hanley. There are some facts----
    Mr. Meadows. Here is what I would like each one of you for 
the record if you could give me three areas that would perhaps 
be painful to absorb or handle in terms of a--what you most 
would like not to see happen in a highway bill that is coming 
up. And what I would like you to do is identify those three 
areas that are most problematic for each one you. And if you 
would submit that to the committee for the record, I would 
appreciate it.
    And I yield back, Mr. Chairman.
    Mr. Shuster. Thank the gentleman.
    And with that, Ms. Esty. She has been waiting patiently.
    Ms. Esty. Thank you. It is so nice to be recognized over 
here. There is a blind spot.
    Thank you, Chairman Shuster. And belated happy birthday.
    Thank you, Ranking Member Rahall.
    And thank you, gentlemen, for--and departed Governor--for 
being here and joining us today on this very important 
initiative. And I am glad we are starting these hearings early. 
This bill, I would agree with several of my colleagues that I 
think this has the opportunity to be the most important piece 
of legislation we work on this year, and we need to do it in a 
bipartisan way, and your assistance in helping us do that is 
much appreciated.
    And look forward to continuing, Mayor Reed, our 
conversation from last year on these important issues. And how 
we grapple with the reality that the trust funds are woefully 
inadequate to meet the needs that we have, even if we were all 
dedicating those funds to the present needs.
    My constituents span the rural to the urban. I have all of 
that in my district. So I have to make that competitiveness 
argument, that essential-need argument, each and every day. And 
they are prepared for and want us to invest in transportation. 
Just last week, the mayor of my largest city, in Waterbury, 
Connecticut, announced an initiative to put up money on the 
local side for a TIGER grant for a greenway, not necessarily 
what you would think the most important issue is for a former 
manufacturing center. But they see that as vital to this 
integration of roads and rail and walkability to address the 
demographic needs of young people. And I have three of them who 
want to live in a city and don't want to drive cars, but they 
want to be in a vibrant city. So we have to do better as a 
society to the figure out how to integrate these needs. But the 
same city of Waterbury is hampered by a notoriously congested 
highway, I-84, which desperately needs to be upgraded and has 
corrosion and is falling apart and is affectionately known as 
the Mixmaster, so you get a sense of what those highways look 
like.
    So we need to have a long-term bill. You know it. We need 
to convince the public and our colleagues of it. That long-term 
investment is going to be essential to get the sort of 
partnering of public-private money that clearly we are going to 
need to leverage to address the needs.
    So I would like you to maybe, Mayor Reed, to start with 
you, to make the case as persuasively as you can as to why 
these investments are so essential for economic development. 
You know, unless we turn the curve so we are looking at a 
growing pie in economic development, we don't get to the real 
core issue, which is jobs, jobs now and job in the future. And 
so if you can expand on the critical role that transportation 
and the surface transportation in its myriad forms plays in 
that, that would be helpful.
    Mr. Reed. I would start by saying that during the worst of 
times, we had a bill called the American Recovery and 
Reinvestment Act. So it was a $784 billion bill. And no matter 
how you feel about it, if you do an analysis of the verifiable 
jobs that were created, there was about 10 percent of that bill 
that was spent on transportation and infrastructure. It yielded 
more than 30 percent of the jobs that could be verified. So no 
matter how you feel about the overall bill, if you care about 
jobs, there is no question that transportation and 
infrastructure is where you create verifiable jobs. That would 
be number one.
    Number two, the long-term bipartisan nature of 
transportation and infrastructure since President Eisenhower is 
undeniable. So this is an opportunity that creates jobs for 
Americans that has historically been bipartisan. So it creates 
verifiable well-paying bipartisan jobs.
    And, lastly, I would say to those folks, if you love 
America and want it to be first and the leading economy in the 
world, it has to have world-class infrastructure because the 
rest of the world gets it, and they are investing in it. And 
the fact of the matter is, is that we are losing. And the 
example, my colleague from Caterpillar points that out more 
sharply than anything else can. The fact that the ports in the 
United States are so uncompetitive that 40 percent of 
Caterpillar's traffic is being sent to Canada I think would be 
persuasive to any person that cares about their own standard of 
living. So those would be my arguments.
    Mr. Hanley. Well, as I said earlier, there is no question 
about the direct connection between transit--I am leaving 
transportation broadly aside; I just want to speak about my 
issue, I am selfish. But the connection between transit and 
real estate development and real estate values is absolutely 
clear and undeniable. And the investment that has occurred as 
recently as the last few years in New York has shown that when 
you make the investment, the real estate values go up, the tax 
base gets better, the whole economy gets better when you do 
that. And it is impossible again what--to have a short-term 
bill and long-term planning. There is no way we can deal with 
the problems your kids have unless we have plans that go out at 
lest 6 years and probably longer. And, obviously, all of these 
things end up creating a better economy and a better 
environment. And they deal with every issue Americans have to 
deal with today, including jobs and education. Just getting 
kids to school is becoming harder without funding in transit.
    Mr. Levenick. I am not sure could I add anything to what 
the mayor said in very eloquent fashion. But I will take a 
shot. And that would be that I think everybody probably gets 
the jobs thing. I didn't realize that statistic on the stimulus 
plan. But that is a good one. But that is pretty obvious.
    I think the one that we have to have an adult conversation 
about with the citizens of this country is the economic impact 
on the future of country. In fact, most citizens don't have the 
advantage that I have of traveling the world and seeing what is 
going on in other countries and how far beyond we are falling 
and what that really means. And I think the incumbent upon all 
of us in plain English, plain language that people understand 
what is at stake here. And it really is a standard of living 
that we have come to expect in this country. And there is no 
reason we can't do that. It has just traditionally been the 
role of Federal Government to play a lead roll. There is a role 
for States. And we have created, I think, a framework here that 
provides some flexibility. But ultimately, this is about, one, 
investment in the future, which we are going to get a return 
on. And all you have to do is look back to the interstate 
highway days and the Eisenhower program, investments we have 
made in education and other big national things. It needs to be 
funded in a way that is fair and flexible and recognizes those 
who use the resource pay for the resource, and ultimately 
create a national network that is long term, sustainable, and 
provides the integration in a network that gives us a global 
competitive advantage. And for its role, I think it is one that 
has probably not has been as strong in the past as it is needs 
to. American business is ready to step up and play a role in 
telling that story and providing the anecdotes that explain it 
in plain English to the citizens of the country so we can make 
some progress.
    Mr. Shuster. Mr. Levenick, I thank you. Your time has 
expired.
    I appreciate all three of you being here. And again, on 
those words, I know all of you had a great close there. 
Appreciate that. As was mentioned, this is our first hearing 
moving toward the reauthorization. But I want everybody to 
realize, too, that we have been having stakeholder meetings and 
other types of meetings getting information from the 
stakeholders. And all indicate clearly from every meeting we 
have, and certainly from today, it is about certainty, long-
term flexibility, reducing regulatory burden. Trying to move 
this bill in a bipartisan way I think is important for us to 
do, being fiscally responsible. And I know you just said it at 
the end, Mr. Levenick, and the mayor has said it probably 
several times today, it is going to be important that those of 
you that are stakeholders, those of us on this committee and 
Congress, we need to educate, advocate, inform the American 
people about the importance. Because they don't have the same 
world view on what is happening to a big city if it is not 
being connected or the different transit systems around the 
country. And that is incumbent upon us to make sure we are out 
there talking. And then as we move closer, making sure we are 
talking to Members of Congress. Because, again, some Members of 
Congress aren't clear on how far we are falling behind in the 
transportation and infrastructure that we have out there.
    So, again, thank you all for being here. With that, I ask 
unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing and 
unanimous consent that the record remain open for 15 days for 
additional comments and information submitted by Members or 
witnesses to be included into the record of today's hearing.
    Without objection, so ordered. We stand adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

</pre></body></html>
